<html>
<title> - FY 2020 FOREIGN ASSISTANCE BUDGET AND POLICY PRIORITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


        FY 2020 FOREIGN ASSISTANCE BUDGET AND POLICY PRIORITIES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-25

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-893PDF                    WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c5c436c4f595f584449405c024f434102">[email&#160;protected]</a>                               

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                        
                   
                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Green, The Honorable Mark, Administrator, United States Agency 
  for International Development..................................     8

                                APPENDIX

Hearing Notice...................................................    61
Hearing Minutes..................................................    62
Hearing Attendance...............................................    63

       STATEMENT FOR THE RECORD SUBMITTED FROM A COMMITTEE MEMBER

Statement submitted for the record from Representative Connolly..    64

            RESPOSNSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submittted from Chairman Engel............    66
Responses to questions submittted from Representative Smith......    76
Responses to questions submittted from Representative Sherman....    78
Responses to questions submittted from Representative Sires......    80
Responses to questions submittted from Representative Titus......    82
Responses to questions submittted from Representative Lieu.......    84
Responses to questions submittted from Representative Houlahan...    87
Responses to questions submittted from Representative Malinowski.    89

 
        FY 2020 FOREIGN ASSISTANCE BUDGET AND POLICY PRIORITIES

                         Tuesday, April 9, 2019

                       House of Representatives,

                     Committee on Foreign Affairs,

                                     Washington, DC

    The committee met, pursuant to notice, at 9:41 a.m., in 
room 2172, Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel [presiding]. The committee will come to 
order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    Welcome, everyone, this morning.
    We convene this morning to get answers about the Trump 
Administration's Fiscal Year 2020 foreign assistance budget 
request. We will hear testimony from Mark Green, one of our 
former Members who has moved on to bigger and better things, 
the Administrator of the United States Agency for International 
Development, and a former Member of this body and this 
committee.
    So, welcome back, Administrator. Thank you for your 
service.
    Welcome to the public and members of the press as well.
    I am a firm believer in development as a way to advance 
American interests and security that is rooted firmly in our 
values. Foreign assistance shows our country's generosity and 
compassion. It is a concrete demonstration of our commitment to 
human rights, to the dignity of all people.
    And to fully appreciate these efforts, you need to see them 
up close. A couple of weeks ago, Ranking Member McCaul and I, 
along with Mr. Espaillat and Mr. Curtis, and some members of 
the Judiciary Committee, visited El Salvador. USAID's work 
there was inspiring. It was helping to foster skills and 
provide opportunities for desperate families_families who 
without this bit of help might have no option but to flee the 
poverty and violence in their communities, who might decide it 
was a better bet to make the dangerous journey from El Salvador 
to our own southern border.
    But the work we are doing there, at a cost of pennies to 
the taxpayer, is giving these people a shot at a prosperous, 
safe life in their own countries. And while we were there, we 
found out the President decided to cut funding for all these 
initiatives. That is just one anecdote.
    This budget I am holding up, is an entire policy based on 
the same kind of thinking. It would seek to slash our 
investment in development by 32 percent. So, it is cutting off 
your nose to spite your face. It is just silly.
    If this budget were put into effect, it would not just be 
Salvadorans pushed aside by the heartless and harmful approach 
to foreign policy. It would be victims of flooding in 
Mozambique; Syrians and Iraqis seeking to protect their 
communities from the next generation of al-Qaeda or ISIS; 
citizens of young, unstable democracies where Russia is trying 
to meddle and interfere, and tuberculosis and malaria and AIDS 
patients all around the world.
    Core humanitarian accounts and democracy and governance 
programs slashed by 40 percent. Maternal and child health 
programs cut by a quarter. Food security, nutrition assistance, 
basic education, all chopped by roughly half. Food for Peace 
zeroed out completely. What an ugly picture this budget paints 
of America. And what a signal of withdrawal and disengagement 
it sends, and you can bet that China, Russia, and Iran are 
listening.
    Mr. Administrator, we should have spared the trees that it 
took to print these budgets because Congress will not allow the 
gutting of American development efforts. It was tried in the 
past 2 years. We fought back on a bipartisan basis, and we are 
going to do it again.
    There are simply too many challenges around the world that 
demand American leadership. From the flight of more than a 
million and half Venezuelans to Colombia. And Mr. McCaul and I 
were on that border last week, the Venezuela-Colombia border, 
and it was heartbreaking to see so many people getting food_a 
very little bit of food and just basically starving, and just 
having no hope for the future. It was just heart-wrenching.
    So, we take the flight of more than a million and a half 
Venezuelans to Colombia and throughout the Americas, to the 
Rohingya crisis in Burma and Bangladesh, to the remarkable 
growth of democracy in Ethiopia. There are too many 
opportunities to build bridges of friendship and understanding. 
There are too many people struggling and suffering for us to 
just turn our backs and say, ``Figure it out on your own.''
    Of course, not everything depends on budget numbers. 
Dangerous policies like the global gag rule are doing real 
harm. This approach to women's health is causing clinics to 
close, blocking access to HIV tests, and denying women and 
girls basic health care from doctors and nurses they trust. It 
amounts to politicians in Washington punishing poor women 
around the world to score points for our domestic political 
agenda. It should be reversed.
    Mark, I know from your time in the House on this committee, 
your service as ambassador, and your time at the helm of USAID 
that you sincerely care about American development efforts. 
When I heard that you were appointed, I was delighted, and 
nothing you have done has made me change my mind. But I do not 
envy your having to defend this budget request.
    I know our members are eager for a frank discussion of 
these matters, and I am grateful that you are with us this 
morning. So, again, I want to thank you.
    Before we hear from you, I will yield to our ranking 
member, Mr. Mike McCaul of Texas, for any opening remarks he 
might have.
    Mr. McCaul. Thank you, Mr. Chairman.
    Thank you, Ambassador Green, for coming here today. It is 
always good to see a former colleague come back home to the 
Congress. You have been very engaged with us, and I appreciate 
our discussions we have had on America's engagement in the 
developing world.
    In particular, for me, a cause I have been fighting for a 
decade is childhood cancer. It is a priority for me. I look 
forward to working with you on this challenge in the coming 
months, and look forward to our trip to Africa as well, and 
global health issues.
    Two weeks ago, as the chairman mentioned, we saw really 
firsthand USAID's critical work in Colombia. Your agency is 
working around the clock to help provide lifesaving food and 
health supplies to those affected by this Maduro crisis. And it 
was heart-wrenching, as the chairman said, to see these little 
children and mothers coming across, I think 50,000 per day 
crossing from Venezuela into Colombia. It is not sustainable, 
and we will discuss that, I guess, later.
    But, in El Salvador, we also saw USAID helping, as you and 
I talked about, address the drivers of migration and gang 
violence, particularly at-risk youth and finding employment and 
ways out of poverty and ways out of MS-13.
    So, I am concerned about the decision I read to cut 
assistance to the Northern Triangle countries. I see it as a 
prevention side of this. And I understand the President's 
frustration with the crisis on the southern border. I share 
that frustration, but I believe this decision, from a policy 
standpoint, if you really analyze it, could actually make 
things and the situation worse, not better.
    We are going to have an important hearing on this tomorrow. 
And I want to thank the chairman for scheduling that, to look 
at the possible effects of this decision.
    Like always, though, if there are programs that are not 
performing, I will be the first to propose reform, cuts, or 
streamlining. And I agree these countries must demonstrate they 
are doing their part to address the root causes of the growing 
migration crisis.
    I look forward to working with the chairman on these 
specific authorizations for the Central American Regional 
Security Initiative and bilateral aid for the Northern 
Triangle. We are going to pay particular attention to the anti-
gang/anti-drug-trafficking and rule of laws program. USAID and 
INL, the law enforcement piece of this is critical to 
protecting the United States.
    Taking a wider view on U.S. foreign assistance, Congress 
plays a vital role to ensure that all these dollars are used 
effectively, efficiently, and are achieving U.S. strategic 
objectives. I welcome reforms that are proposed in the 
administration's budget. In addition, I strongly support your 
work to better engage the private sector and business 
community, and to focus on the country's journey to self-
reliance.
    However, certain cuts can have unintended consequences that 
cost us more in the medium and long term. This includes deep 
cuts to our development and humanitarian assistance programs. I 
believe that we must maintain U.S. leadership and continue 
supporting programs that spur economic growth, improve health 
outcomes, promote democracy, and support countries' own ability 
to provide for their citizens.
    I applaud the administration for their focus on Indo-
Pacific, for providing robust assistance for Venezuela, and 
continuing the funding to counter Russia's influence in Europe. 
We must continue U.S. leadership on issues such as HIV/AIDS, 
PEPFAR prevention, food security, and human rights. These 
efforts are critical, but we need to take the long-term 
approach about our assistance. We must focus our efforts on 
prevention, stabilization to get to the root causes of extreme 
poverty. Unless we better address the underlying causes, we 
will continue to see radicalization and extremism in vulnerable 
communities.
    And that is why Chairman Engel and I introduced the 
Bipartisan Global Fragility Act that we are going to mark up 
later this afternoon, to improve the way the U.S. approaches 
the fragile States and stabilization efforts. So, I am glad 
that we are going to mark up that bill later this afternoon.
    Sir, I applaud your service to our country, both as 
Ambassador and now Administrator. I look forward to your 
testimony.
    I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. McCaul.
    Our witness this morning is the Honorable Mark Green, 18th 
Administrator of the United States Agency for International 
Development, a post he assumed in August 2017. He served as the 
United States Ambassador to Tanzania from 2007 to 2009, and 
from 1999 to 2007, served as United States Representative for 
Wisconsin's 8th District, and a member of this committee for 
six of those years, also a personal favorite of mine. He also 
served as Director of Malaria No More, Senior Director of the 
U.S. Global Leadership Coalition, and President and CEO of the 
Initiative for Global Development.
    Administrator Green, welcome once again. I now recognize 
you for 5 minutes to summarize your testimony.

 STATEMENT OF THE HONORABLE MARK GREEN, ADMINISTRATOR, UNITED 
          STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Green. Thank you. Thank you, Mr. Chairman. Thank you, 
Ranking Member McCaul, members of the committee. I appreciate 
this opportunity to summarize my written testimony.
    In total, the Fiscal Year 2020 request for USAID fully and 
partially managed accounts is approximately $19.2 billion. It 
represents $2.4 billion, or 14 percent, more than requested 
last year. I think the message of this request is 
straightforward. As has been eluded to, we attempt to balance 
fiscal responsibility here at home with our leadership role in 
national security imperatives on the world stage.
    In order to capture some of the important work we are 
doing, I would like to begin by touching upon my most recent 
travels. I have just returned from Egypt, Jordan, and Senegal.
    In Egypt, I had the chance to meet with young entrepreneurs 
taking part in a USAID-supported agricultural strengthening 
program. We discussed ways to improve emerging technologies 
that will strengthen yields and improve import opportunities. I 
met with civil society leaders to discuss the challenges and 
opportunities that NGO's face in Egypt and efforts to revise 
its counterproductive NGO law.
    In Jordan, I reviewed initiatives we have supported to both 
strengthen public-private partnerships and expand access to 
quality education. I met with Queen Rania and others to explore 
new ideas in this area. I met with faith-based leaders who are 
trying to provide humanitarian support to families displaced by 
regional conflicts like the crisis in Syria.
    I, then, traveled to Senegal to lead the U.S. delegation to 
the inauguration ceremoneys for President Macky Sall. Senegal 
stands as a beacon of hope in the region, an example of what is 
possible through a commitment to democracy, inclusive growth, 
and policy reform.
    Unfortunately, as you all know, there are many countries 
that are not moving in that same direction. Democratic 
backsliding is a significant challenge that we are hard at work 
trying to address. In modern times, authoritarian leaders 
rarely oppose elections outright. Instead, as we have seen in 
capitals from Caracas to Phnom Penh, they use sophisticated 
tools and methods, often with outside help, to bend elections 
long before the votes are ever cast. Subverting civil society 
and independent media, marginalizing opposition voices, and 
other steps undermine any real hope that citizens might have 
that they can shape their future through the ballot box.
    Venezuela, of course, Mr. Chairman, as you alluded to, is a 
prime example. Nicolas Maduro's ruthless policies and actions 
have destroyed Venezuela's economic and political institutions. 
At Interim President Guaido's request, we have prepositioned 
humanitarian supplies in the region for eventual delivery into 
Venezuela. In fact, since February 4th, the U.S. Government has 
prepositioned nearly 546 metric tons of assistance. We have 
also provided more than $195 million in humanitarian and 
development assistance throughout the region for Venezuelans 
and to help host communities.
    Around the world, the U.S. will continue its role as the 
leader in humanitarian assistance. While most of such 
assistance currently goes to places suffering from manmade, 
regime-driven crises like Venezuela, we are also responding to 
terrible natural disasters like Idai. Torrential rains there 
have put nearly 900 square miles of land under water. Five 
hundred people have lost their lives and 2 million are in 
desperate need of humanitarian assistance. Across the U.S. 
Government, we have answered the call, mobilizing approximately 
$43 million in supplies and assistance. To prevent the further 
spread of cholera, we are delivering essential relief supplies, 
like water treatment units, water storage containers, and 
latrines.
    Then, there is the Ebola outbreak in the DRC, where health 
officials have recorded at least 1146 confirmed and probable 
cases and 721 related deaths. The experts of our DART, Disaster 
Assistance Response Team, are working tirelessly to break the 
chain of transmission and, ultimately, end the outbreak.
    And then, there is the crisis in Burma and Bangladesh. 
Bangladesh now hosts 1 million Rohingya refugees; 730,000 of 
them were driven there by the ethnic cleansing campaign 
conducted by Burmese security forces. Last May, I visited Cox's 
Bazar myself. I met with government representatives, and I 
conveyed America's gratitude to Bangladesh for hosting the 
refugees. But I also encouraged them to allow humanitarian 
organizations to provide those refugees with the full range of 
support necessary for their well-being: access to education, 
weather-resistant shelter, and livelihood opportunities.
    As to Burma, we continue to call on the government to take 
concrete actions that would allow the voluntary, safe, and 
dignified return of Rohingya and other vulnerable communities.
    This budget significantly expands our investments in 
another kind of freedom, freedom of conscience and religious 
expression. In particular, this budget request includes $150 
million to help us continue our assistance to those religious 
and ethnic minorities in the Middle East whom ISIS sought to 
extinguish.
    Members, I have had the chance to discuss with many of you 
the rising anti-democratic influence of China and Russia. USAID 
will soon unveil a framework for countering malign Kremlin 
influence, especially in Europe and Eurasia. Our Fiscal Year 
2020 request prioritizes $584 million to support that work.
    Part of our approach in this region must also be standing 
firmly with our allies. For example, Mr. Chairman, as you know, 
Kosovo, a country you care about a great deal, is a strong U.S. 
ally and should be integrated into the international community. 
We are committed to helping Kosovo along its journey to self-
reliance.
    As I know you all agree, America's security and prosperity 
at home is closely tied to a stable and free Indo-Pacific 
region. This request includes $1.2 billion to advance U.S. 
leadership and promote open, transparent, and citizen-
responsive governance across the region.
    Members, when I last appeared before the committee about a 
year ago, I provided an overview with several planned 
initiatives in our transformation plan. After consultations 
with many of you and your staff, we have improved those plans 
and we have, in fact, actually implemented many of them. I look 
forward to addressing any questions you might have going 
forward, as we address some of the remaining congressional 
notifications. I do appreciate that partnership.
    In terms of initiatives launched, we launched the agency's 
first-ever private sector engagement policy. The idea is to 
move beyond mere contracting and grantmaking to true 
collaboration, cofinancing, codesign of initiatives.
    Early this year, we joined others in launching the White-
House-led Women's Global Development and Prosperity Initiative, 
WGDP. In fiscal 1918, we allocated $50 million for this 
initiative. This current budget request goes further and 
includes $100 million to support work force development and 
skills training, greater access to capital, and changes to the 
enabling environment.
    Finally, I would like to say a word about our most precious 
asset, our human resources. Our dedicated corps of Foreign 
Service Officers, Foreign Service Nationals, and other team 
members are truly on the frontlines of that which we do. So, we 
will continue to staff up and bring our work force into greater 
alignment with strategic planning numbers and available 
operating expense budget allocations. We are preparing to hire 
approximately 140 career track Foreign Service Officers before 
the end of Fiscal Year 2020. We have also approved 221 new 
civil service staff positions and have selected 10 finalists 
for the Donald M. Payne Fellowship Program.
    Members, thank you for your support and guidance. I do 
appreciate it, and I view it as a true partnership.
    And, Mr. Chairman, thank you for this opportunity to appear 
again. I apologize if my voice does not hold out very well. 
But, as always, I appreciate our discussion. And again, thank 
you.
    [The prepared statement of Mr. Green follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Mr. Green. As an alumnus of this 
committee, we especially are interested in hearing what you 
have to say.
    So, I will now recognize myself for 5 minutes, and I will 
recognize members for 5 minutes each to ask questions.
    Let me start. Administrator Green, as I mentioned in my 
opening statement, last week I, along with Mr. McCaul, led a 
congressional delegation to El Salvador where we witnessed 
firsthand the direct impact of our USAID programs in building a 
better future for the country and ensuring that children and 
families are not forced to make the dangerous journey north. I 
spoke with incredible young people, as did Mr. McCaul, who were 
learning how to code and become software engineers. It alarms 
me to think about the future these young people will face if 
President Trump moves forward with his misguided decision to 
cutoff aid to Central America.
    So, let me ask you, do you believe that our assistance to 
Central America is in the U.S. national security interest? And 
if so, does not cutting aid hurt the very aims of reducing 
violence and other factors that compel people to flee north?
    Mr. Green. Thank you, Mr. Chairman, for the question.
    First off, as a general matter, I think we all agree that 
our foreign assistance must always be in our national interest. 
That is something that is a basic principle of what we do.
    I will give you a poorly kept secret. The administration, 
in general, and the President, in particular, is frustrated 
with the problem of illegal immigration on our southern border. 
I heard an interview a few days ago with former DHS Secretary 
Jeh Johnson where he said that the situation is a crisis by 
anybody's reckoning. And so, that is what led the Secretary, on 
March 29th, to redirect approximately $450 million of Fiscal 
Year 1918 foreign assistance intended for El Salvador and the 
Northern Triangle countries, and he instructed the State 
Department to review all existing grants that use Fiscal Year 
1917 dollars.
    What I would say is that we continue to look for ways to 
make our programs as effective as we possibly can. In recent 
months, we have been looking at some of the Customs and Border 
Protection data that helps us understand better from where 
these individuals are coming, and we are in the process of 
trying to make sure that we design the most effective programs 
we can.
    I am very hopeful that, when the President is satisfied 
that our partner countries are doing all that they can, that we 
will have an opportunity to further craft these programs and 
work with you to deploy them and do what we can to address both 
the issues of migration, but also economic opportunity and 
freedom in the hemisphere.
    Chairman Engel. Thank you.
    Mr. Green, are you concerned, as I am, that cutting off 
ongoing USAID contracts could open up the U.S. Government to 
litigation and actually cost us more in legal fees and 
penalties than the programs themselves? That would also seem 
self-defeating to what the President says is his 
administration's aims.
    Mr. Green. Thank you, Mr. Chairman.
    I believe that will be part of the review that the 
Secretary leads over the next couple of weeks, is taking a look 
at all of the issues related to the Fiscal Year 1917 dollars, 
obviously, some of which have been allocated and obligated.
    Chairman Engel. I appreciate your efforts to make positive 
changes within USAID structure and tackle long-term issues like 
procurement and fragmentation of humanitarian assistance in 
your redesign efforts. However, I remain concerned about the 
treatment of Democracy, Human Rights, and Governance in the 
proposal which have been lumped into a much larger, catch-all 
bureau. So, how would you ensure democracy and governance is 
appropriately prioritized in USAID? And can you commit to 
including democracy and governance in the new Conflict and 
Stabilization Bureau, since we have seen time and time again 
how governance is so clearly a root cause of fragility and 
conflict?
    Mr. Green. Mr. Chairman, I am delighted that you asked the 
question because, as you know, it is a priority for both of us, 
making sure that our work on democracy, responsive government, 
civil society is strong and prioritized. So, democracy has 
always been part of a larger bureau, but I think what we do 
with our transformation plans is, quite frankly, to elevate it. 
We have also made various aspects of civil society and citizen-
responsive governance key metrics in our roadmaps. So that, as 
we have our conversations and do our strategic planning with 
host countries, that it is always at the forefront. And as you 
heard me say in my opening statement, I am particularly 
concerned about the new methods being deployed by 
authoritarians as they seek to bend democracy to their will 
long before election day. And so, I commit to working with you, 
to making sure that all of our programs in the democracy area 
are elevated, sharpened, prioritized, and that we, in fact, 
take on some of these new methods and technologies that 
authoritarians are using to subvert the people's will. So, I 
share your concerns and your priorities.
    Chairman Engel. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    Let me just say that, as a former chairman of the Homeland 
Security Committee, no one has been a stronger proponent of 
border security than I have. In my home State of Texas, I see 
the problem firsthand, and it is a crisis. But I also think we 
have to deal with the root causes of the problem that the 
chairman has reference to. And that is poverty, violence, 
gangs, destabilization. And so, we will have more discussions, 
I know, on that issue.
    I wanted to kind of shift toward the Sahel. As we saw one 
of the last battles of ISIS taking place in Syria, we are 
seeing extremism rear its ugly head in Libya, Northern Africa, 
and particularly the Sahel. So, the Global Fragility Act that 
Mr. Engel and I introduced would be a true partnership at the 
Federal level between USAID, State, and Department of Defense.
    This, again, it is the same concept. You want to stabilize 
these nations, so that you do not have radical efforts. In 
Central America, it is more gangs and cartels. In Africa, it is 
extremism and terror groups. And so, how do you see the USAID 
working under this bill that we intend to mark up this 
afternoon?
    Mr. Green. Thank you, Congressman. And honestly, thank you 
and the chairman and others for taking up this important set of 
issues. Quite frankly, I do not think it has received the 
attention that it deserves over the years, and this is over 
multiple administrations.
    Ungoverned spaces are dangerous spaces. And as we see the 
flow of displaced communities, as we see the move of those 
fleeing the battlefield in some of the pitched battlefields 
right now moving into those places, it creates new risks for 
all of us.
    So, at USAID, we have been looking to develop tools that 
will strengthen responsive governance, but also provide some 
economic opportunity. I continue to believe that the Feed the 
Future Initiative, which was launched by the previous 
administration, is one of the best development tools that we 
have seen in a long time. I think it is a way of creating some 
vibrant opportunity in pretty quick terms in some of these 
areas. Food security addresses problems of desperation in the 
obvious sense of hunger and poverty, but also in terms of 
economic opportunity.
    So, we look to strengthen our food security work in the 
Sahel region and help deploy some of the tools that will help 
communities deal with the repeated shocks and crises that they 
have faced that has often created the desperation that 
extremists feed upon. I think there are a number of ways in 
which we can help make a difference there, but, again, I truly 
salute your interest on this because I think it is an area that 
we all need to be doing more. We need to keep our eyes on it 
very much.
    Mr. McCaul. And when I talk to the military, they all warn 
that this is going to be the next battleground, battle space. 
And so, I agree with you. I look forward to traveling over 
there with you.
    On China, we will be marking up my Championing American 
Business Interest Through Diplomacy Act. What is USAID doing to 
counter the growing threat from China, the One Belt, One Road? 
They are everywhere. They are in Africa. When we were down in 
El Salvador, the incoming President said that the current 
President was going to cut a deal with the Chinese to give them 
two ports and 5G internet access, which means they control, 
they dominate, they own that space. So, what is your agency 
doing?
    Mr. Green. Thank you for the question, timely and 
important.
    So, we have a framework that we are using that we call the 
Clear Choice Framework. And we do that because we think it is 
essential that we show our partners and potential partners the 
difference in the approach that China and other authoritarians 
take in terms of partnering with countries and that which we 
put forward.
    First, let me say I hear a lot of reference these days to 
great power competition. That is actually not a term that I 
favor because it sort of implies that China and the U.S. are on 
the same playing field heading in the same direction with the 
same goals, and I just do not think that is the case. What we 
in the U.S. and our allies seek to do is to help countries move 
from being assistance recipients to partners, to fellow donors. 
And so, we work to help these countries with their self-
reliance, so they can lead their own bright future.
    Chinese financing is predatory financing, and they seek to 
do the opposite. They seek, instead, to provide long-term 
obligations to these countries, very often unsustainable, but 
which give them a strategic and often militaristic advantage. 
So, we think the most important thing that we do is to make 
that choice clear.
    Second, and most obvious--and I am sure you hear this in 
your most recent travels, but elsewhere--we need to be in these 
places. One of the most important things we need to do is to 
make sure that we have a presence. Most countries with which I 
am familiar will tell you the U.S. is their preferred partner. 
They want to partner with the U.S. and the vibrancy that our 
system offers. So, we need to be there and engage with them, 
and link them up with the private sector.
    In addition, I think it is important that we not get caught 
up in a financial arms race with China. I do not believe we 
should seek to be ``China Light''. Instead, what I think we 
should do is deploy our assets strategically to incentivize the 
kinds of reforms that help countries help themselves, but also 
open the doors to the kind of vibrant private sector investment 
that ultimately they want and they need.
    So, I think there is a lot to be done. The most important 
thing is just what you have done, and that is to point very 
clearly to the challenge that we face as a Nation, not just us, 
but our strategic allies who I think see it the same way we do.
    Mr. McCaul. Thank you. I see my time has expired.
    Chairman Engel. Thank you.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    And, Administrator Green, thank you for your service in 
such an important function.
    The Fiscal Year 1920 budget request highlights that USAID 
funding, quote, ``builds strong partners in the region to 
reduce vulnerability to Russian aggression,'' unquote. And the 
document further States that USAID funding, quote, ``bolsters 
efforts to resist Russian malign influence by focusing on 
cybersecurity, good governance, anti-corruption, rule-of-law 
reforms, supports strong and independent media.'' Let me stop 
there quickly before I go back. Could you tell us the 
importance of having a strong and independent media, and how 
the U.S. reflects that value today?
    Mr. Green. Thank you for the question.
    Sure. In fighting malign Kremlin influence, there are a 
number of things we need to do, but I think one of the most 
important things we need to do, particularly in Europe and 
Eurasia, is ensure that citizens in that region are getting an 
accurate depiction of information and events. And very clearly, 
that is not happening.
    Mr. Keating. Could I stop you there?
    Mr. Green. I'm sorry.
    Mr. Keating. I have noticed in this region and throughout 
the globe a lot of autocratic leaders now are using the term 
``fake press''. Hear it all the time. It is printed. Do you 
recognize that is being said quite a bit by these leaders?
    Mr. Green. Sure, that and other terms, yes.
    Mr. Keating. ``Fake news,'' ``fake press,'' you have heard 
that?
    Mr. Green. Yes. Clearly, the concerns over a lack of 
independent media, yes.
    Mr. Keating. Now where do they get the term ``fake news,'' 
do you suppose? It is relatively newly used.
    Mr. Green. Congressman, again, I cannot tell you. What I 
can tell you is the concern over propaganda and lack of 
independent media goes back a number of years. And in my 
previous capacity, that is the work that we used to be involved 
in.
    Mr. Keating. Do you think that the U.S. Government and its 
leaders, when they say things that are proven to be factually 
incorrect and just dispose of it or dismiss it as ``fake 
news,'' does not that undercut our efforts in that regard 
around the world? I think it is hard when you go into countries 
and trying to advocate for a free press in an area where they 
are locking up journalists. Yes, I find it harder to do today.
    Mr. Green. Congressman, you will find me a strong voice for 
independent media wherever I go. It is important to me. It is 
important to us. It is part of our programming. We work to 
support independent journalists in places from Nicaragua to 
Europe and Eurasia. It is a vitally important part. It is one 
of the indicators that we take a look at on our roadmaps in 
building countries' self-reliance. So, it is very important to 
us and very important to me.
    Mr. Keating. I believe, as you do in this document, that 
Russia's malign influence has to be countered, but the budget 
request is less than half of what Congress previously 
appropriated. And I quoted the report as saying this 
``bolsters'' efforts. If it is cutting it in half, how is that 
bolstering the efforts?
    Mr. Green. First, Congressman, there is no doubt that this 
budget reflects difficult choices and tough choices. I think we 
all see that. We will never have enough resources to seize 
every opportunity or to take on every challenge.
    What I think we are saying there, what I think the document 
references, that as we unveil the countering Kremlin influence 
framework, we are prioritizing and pulling together resources 
to make sure that we focus on this challenge.
    Mr. Keating. Yes, and you mentioned backsliding of 
democracies, too. I certainly see concerns for that in Hungary 
and Poland in the European area. I will give you just the 
opportunity. Maybe you could help us with what your views are 
with Georgia, a country that has been moving hard, albeit 
having its own challenges in terms of corruption and other 
issues as it goes forward, but really working hard to meet 
democratic standards, so they can move forward. Could you 
comment on what we could do to further help Georgia?
    Mr. Green. I had the honor of being an election observer in 
Georgia just a few years ago, and it was a great experience. 
But, actually, the best experience was not the day that I 
observed the elections. It was the following day when I had a 
chance to meet with young Georgians representing all of the 
major parties, and they were friends from school and had gotten 
together. And I saw there more cross-party discussions that 
gave me tremendous faith in the future of Georgia. Supporting 
that kind of dialog I think is key and creating the kinds of 
economic opportunity that give young people a hope in the 
future.
    In that region of the world, we know that the Kremlin goes 
country by country looking to exploit weaknesses, and the 
weaknesses are different in each country. And so, I think we 
have to take a country-by-country approach ourselves. One of 
the reasons that we have designed the roadmaps to help guide 
our discussions is recognizing that not every country is in the 
same place in its journey to self-reliance. We need to 
understand where they are. We need to understand where they are 
coming from and talk with them, work with them, to find ways to 
provide the tools that they need to rise.
    Mr. Keating. Thank you. Again, thank you for your career 
service.
    And I yield back.
    Chairman Engel. Thank you.
    Mr. Chris Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Administrator Green, thank you for your tremendous 
leadership. Having somebody of your caliber and commitment and 
energy at the helm of USAID is truly important, particularly in 
this time of great crisis, humanitarian crisis, throughout the 
world.
    I do want to thank you for prioritizing the victims of ISIS 
genocide in Iraq, including Christians and the Yazidis. You 
personally led the fact-finding trip last year that I think was 
very, very instrumental in helping to push forward with 
additional funding.
    Since Fiscal Year 2017, the U.S. had provided more than 
$340 million of assistance to support religious and ethnic 
minorities targeted by ISIS for genocide. So, I, again, want to 
thank you for that tremendous leadership.
    I just want to thank you for your work that you have done 
on tuberculosis. I know it is a very strong personal commitment 
that you have. I know the budgets, when they are sent up here 
by whoever is in the White House, they often call for cuts that 
are restored by Congress, but this year you are at the 2018 
level on TB. I would point out, parenthetically, that when 
President Obama sent his budgets up, there was a 20 percent cut 
in TB funding, which, then, again, in a bipartisan way we put 
back. But you have done a tremendous job in tuberculosis. It is 
the leading infectious killer around the world, as you know so 
well.
    My question would be concerning TB diagnostics. There have 
been great advances in recent years with respect to getting 
rapid results, due, in particular, to the GeneXpert machine. 
And once people know their status, they can be treated. I 
wonder if you might want to speak to that and some of the 
things you are doing personally on this important issue.
    And then, third, on the issue of Ebola, thank you for your 
update. Even your oral presentation had even more numbers of 
death and sick than the presentation in the written form, 
showing that it continues to get worse. The good news is that 
some of the therapeutics that are being used have actually 
caused people to survive. You might want to speak to that. 
Also, the idea of vaccinating people against Ebola, a great 
breakthrough, so that healthcare workers can do their work with 
less concern about contracting this deadly disease.
    And also, if you might want to speak to, how do we protect 
our deployed health workers and others from other countries, 
security issues, particularly in the Goma area? I have been 
there, North Kivu. If it gets to Goma, obviously, a city of a 
million people, it puts some more people at risk, obviously, of 
that terrible disease. But if you could speak to the Ebola 
crisis further?
    Mr. Green. Thank you, Congressman. First, thank you for 
your kind words on the work that we are doing for displaced 
religious and ethnic minorities in northern Iraq. But, to be 
honest, I have to salute you for your leadership. In a lot of 
ways, we have been standing on your shoulders. And so, I 
appreciate all that you have done.
    As we have discussed, there is a long way to go. Security 
at the end of the day still will determine whether or not we 
are successful in helping to rebuild communities and lives 
there.
    Second, on tuberculosis, something I learned a long time 
ago in the work and the development--actually, in my days of 
Malaria No More, our chairman, Peter Chernin, used to always 
talk about taking on challenges that we can actually solve, to 
build momentum for other work that we need to do. In the case 
of tuberculosis, we can do this. We absolutely, with the 
technologies that we have, we can take on and eliminate 
tuberculosis in many places. It is vitally important.
    We have recently unveiled what we call a Tuberculosis 
Accelerator. What we are trying to do is make sure that we 
partner with local organizations and health officials to build 
their capacity and create their investment in results. One of 
the reasons that I am so keen to tackle tuberculosis is not 
only can we tackle it, not only is it currently a terrible 
killer around the world, but, third, it is the stigma that is 
too often associated with tuberculosis. It attacks the poor and 
the vulnerable and further marginalizes them from society. And 
to me, that is an extra tragedy that we need to take on where 
we can. But these technologies I think create real 
opportunities.
    Third, on Ebola in DRC, we should be very concerned. In the 
last week, we have seen a number of signs that the outbreak is 
far from under containment. There is a long way to go. I met 
with Bob Redfield of the CDC on Friday. And I know that 
Secretary Azar had had a meeting with the new President of DRC 
last week. And we are really concerned. In coming days, CDC and 
USAID together are going to produce a new action plan because 
some of these new numbers that we are seeing tell us we have a 
lot of work ahead of us.
    What makes Ebola in DRC so different than the challenges 
that we face with pandemics in other places is the backdrop. 
So, the outbreak flared up, obviously, last year against the 
backdrop of elections, which was a complication, shall we say? 
But, second, there is so much distrust in community leaders and 
health officials and, quite frankly, outsiders, that it weakens 
some of the normal approaches that we would take to tackling a 
pandemic like the Ebola outbreak. This is probably the greatest 
Ebola challenge in some ways that we have faced. Obviously, 
currently, knock on wood, it will stay that way. It is not on 
the scale of West Africa. But, with all the complications of 
conflict, fragmentation, lack of access to some areas, the 
security challenges that you point out, that is a daunting 
challenge.
    It is very much worthy of this committee's attention. It 
has our highest attention. I get briefed on it nearly every 
day, and we are working closely with CDC. We would love to 
provide a further briefing to your staff because it is a 
challenge that it is worthy of attention.
    And just finally, on the security front, that is the big 
question. Nobody is suggesting that we, the U.S., should deploy 
security assets in a setting like that. That is not being 
requested or sought, but we do have to recognize that too 
often, 20 times since February, if I am correct, we have had 
security incidents. And we have had, in the last month and a 
half, several incidents that appeared to target health centers. 
And that is obviously deeply alarming. Again, without being too 
alarmist, this is something that requires all of us to pay 
attention to.
    Chairman Engel. Thank you, Mr. Green.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome, Mr. Green, back to the committee.
    I am going to try to cover three issues. One you were just 
talking about, global health security. As noted, the second 
deadliest Ebola outbreak in history is raging currently in a 
combat zone in the DRC. We know, confirmed, at least 1100 cases 
and 629 deaths and rising.
    We also know that at least 70 percent of the world's 
nations are not fully equipped to respond to health emergencies 
like this. And I just want to inform you that today, on a 
bipartisan basis, Mr. Chabot and I are reintroducing the Global 
Health Security Act, with Republicans and Democrats 
cosponsoring it, which we have got to apply our commitments 
under the global health security agenda and designate an 
emergency response coordinator, given the rising threat. We are 
going to make sure you see that bill and would love to have 
your support and cooperation. Thank you.
    Democracy assistance. According to Freedom House, more 
countries have been experiencing declines in democracy than 
gains every year for the last 13 years. And yet, the 
President's budget would gut democracy promotion funding by 
more than half. Now I am a member of the House Democracy 
Project. We have a relationship with 14 or 15 parliaments 
around the world trying to promote democracy. And I know of 
your personal commitment. You were with IRI, which is an 
organization we deal with very closely in these countries. How 
important is democracy institution-building, from your point of 
view, Administrator Green, and should not the United States be 
increasing its support, rather than cutting it in half? And we 
will stipulate you support the President's budget, but I am 
asking a policy question and your experience. Surely, you have 
seen the good that could be done.
    Mr. Green. Thank you, Congressman. You and I have had a 
number of discussions. I share the priority you have placed 
here.
    Among other things, just as a practical matter, the only 
way that our investments in development are sustainable over 
the long haul is if we also take a look and bolster citizen-
responsive governance. I think it is the key to sustainability.
    I am a big supporter of the House Democracy Partnership. It 
is one of the few programs out there that works on legislative 
strengthening. I think there is always a risk for us--and I 
think this is true of almost every country--we deal with 
executives; it is easy. That is what we do diplomatically. We 
tend to reach out to a head of State or a head of government. 
But we all believe in dispersal of power. We all believe in the 
checks and balances that come with legislative oversight. HDP I 
think is a wonderful tool to help address that.
    Then, the next point--and this is really what has taken up 
a lot of my time and thinking recently--I have turned to NDI, 
IRI, and others to help us think through a framework to tackle 
the lead-up to elections. I am increasingly concerned, as I 
laid out in my opening statement; I mean, almost nobody opposes 
elections anymore, right? What they do is they bend the 
election, so they can say, ``Aha, we've had an election.'' 
Maduro has done that.
    So, we have to do----
    Mr. Connolly. Yes, you can even win an election without 
winning most of the votes.
    Mr. Green. We have to take on the challenge of what happens 
months ahead. What are those indicators? How do we strengthen 
those institutions?
    Mr. Connolly. Mr. Green, because of the interest of time--
forgive me----
    Mr. Green. But I will come back----
    Mr. Connolly. I am glad to hear of your commitment. But let 
me just say, I think we also need to look at the resources 
necessary for shoring up institutions. We deal with parliament-
to-parliament exchanges. They do not have the resources. They 
do not have the staffing. They do not have the independent 
analytical capability we can help them with. But we cannot help 
it by cutting the program in half. And I commend to you a 
reevaluation of that.
    Final point. In the 140 pages of the President's 
international affairs budget, he mentions climate change once, 
and only once. Now in my other committee we are having a 
hearing on climate change right now. Should we interpret that 
to mean that USAID is diminishing or retreating from assisting 
nations in resilience-building and responding to the threats of 
global warming and rising sea levels, and other kinds of 
pernicious aspects, including disease and vectors and even 
agricultural change?
    I have asked the witness to be allowed to answer, and then, 
I, of course, will yield back, Mr. Chairman.
    Mr. Green. Thank you for the question.
    So, I noted last week when Secretary Pompeo testified, he 
was asked the question about climate change, and he said--I am 
quoting--``The climate is changing.'' And so, I think what we 
try to do, as a development entity, is to help countries deal 
with consequences. So, in Ethiopia, for example, we have been 
investing in technologies that help them. So, they have had 
four consecutive years of drought. We help them with 
resilience, so they do not fall into famine. We work with land 
use planning in places like Indonesia to strengthen their 
resilience against the mudslides that they too often face. Even 
in places like Bangladesh or on Cox's Bazar, we are working to 
strengthen the shelters that are there to deal with the 
predictable cyclones and monsoons that are coming. So, it 
continues to be important for us, from food security to 
humanitarian work, to deal with the consequences of changing 
climate. It is an important part of our work.
    Mr. Connolly. Thank you.
    Chairman Engel. Thank you.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    And, Mr. Green, it is always a pleasure to have you here, 
having had the distinct advantage and opportunity to serve with 
you in this body and on a fair number of issues on this 
committee. We are glad that you have landed well and that you 
are doing wonderful work for our Nation and the world. So, 
thank you very much for what you are currently doing and what 
you did back then.
    At the beginning of the year, the Protecting Girls' Access 
to Education in Vulnerable Settings Act, or conflict zones, we 
also referred to it, passed the House, passed the Senate, and 
President Trump signed it into law. This legislation, which I 
had the honor to author, along with my colleague, Robin Kelly, 
my Democratic colleague, would allow the State Department and 
USAID to prioritize education in our foreign assistance 
programs. I know it has only been a few months, but could you 
provide some insight on how your organization plans to 
implement this legislation?
    Mr. Green. Thank you, Congressman, for the question.
    One of the great things I think about this legislation and 
the new tools that we have, access to education, particularly 
for girls, it allows us to prioritize and focus on what I think 
are the sharpest education challenges that we see right now. 
And that is access to education for girls in crisis and 
conflict zones, which I always tell people--``What is it,'' 
people always ask me in my line of work, ``What is it that gets 
you up in the middle of night?'' What gets me up in the middle 
of the night are 70 million displaced people, children being 
born in camps and displacement, growing up in camps and 
displacement. We have to help create connectivity for the world 
around them, and education is irreplaceable in that, 
particularly for girls. If we do not empower girls through 
education, they are going to be vulnerable to some of the worst 
forces that are out there. So, it is a very high priority for 
us, and I really do appreciate your leadership on it.
    Mr. Chabot. Thank you. So, we look forward to you all 
pushing forward with that because, as you indicated, these 
young girls are vulnerable to horrific things, including human 
trafficking and a whole range of things that one hates to even 
think about.
    Next question. One of the most horrific crimes against 
humanity really in recent memory was the attack on the Rohingya 
by the Burmese military. Essentially, 400,000 or so were driven 
out. There were villages burned, rapes and murders, and just 
horrible things happening. What does USAID envision for the 
Rohingya, given the challenges of ensuring a safe and voluntary 
return to Burma at this time? Ideally, we would like most, if 
not all, the folks to go back to their country of origin, but 
right now they just do not feel safe. We have had the 
opportunity, myself and some of my colleagues, to meet with 
them, as well as some Burmese officials and Bangladeshi 
officials. So, what would you say there?
    Mr. Green. The challenge of the displaced Rohingya 
community is obviously a transnational one, Burma and 
Bangladesh. In the case of Bangladesh, one of our immediate 
concerns is making sure that the full range of services, if you 
will, is available to those in places like Cox's Bazar. So, 
obviously, emergency medicine and food, but also some semblance 
of education and working on those things that will allow them 
to be successful and independent someday. And finally, quite 
frankly, reinforcing the shelters that are there because Cox's 
Bazar, in particular, is sometimes referred to as ``Cyclone 
Alley''. It is an area that seems to disproportionately get hit 
by monsoons and cyclones. And so, it is a high priority for us 
to try to help in that regard.
    In Burma, one of the most important things I think we can 
do is press the government in how it treats the Rohingya who 
have been left behind, who are in camp settings or other 
settings in Burma. How you treat your internally displaced 
persons I think is a pretty good indication as to how you would 
treat those who might come back.
    And I think I have mentioned to you, out of all the things 
that I have seen as Administrator, what has bothered me the 
most are the Rohingya who are trapped in places like some of 
the camps near Sittwe. I was deeply disturbed by the lack of 
hope and opportunity that those poor families were facing. We 
have pressed often and will continue to do so. We have made it 
clear that, while our development portfolio is such that we 
want to help all in Burma, we need to make sure that we never 
forget those Rohingya who are in those communities, so that 
they have some semblance of hope for the future. I have met too 
many young Rohingya who were born in camps, have never lived 
outside a camp, and that is as inhumane as I can think of.
    Mr. Chabot. Thank you very much.
    My time has expired, Mr. Chairman.
    Chairman Engel. Thank you.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chairman.
    And thank you, Administrator Green. It is good to see you 
at the committee, and I really appreciate your leadership at 
USAID.
    I wanted to ask you about a couple of countries in Africa. 
Sudan, 30 years after taking power in a coup, President Bashir 
now faces an unprecedented challenge to his regime, as 
protestors continue a peaceful resistance movement, now almost 
4 months old. In response, the government has arrested several 
thousand people and further restricted political space. While 
U.S. assistance in Sudan is restricted, Congress has long 
supported USAID's effort to mitigate conflict and promote more 
inclusive and participatory governance. The administration's 
Fiscal Year 2020 request proposes a major cut to such programs, 
eliminating conflict mitigation and stabilization funding and 
cutting democracy and governance by 30 percent. What impact 
would these proposed cuts have on the ability of the U.S. to 
support Sudan's opposition and civil society in their effort to 
encourage political reforms?
    Mr. Green. Thank you, Congresswoman. As always, it is great 
to engage with you on Africa. I am well aware of the love you 
have for the continent.
    What is going on in Sudan is heartbreaking. It just is 
deeply heartbreaking. As you know, USAID's piece of the five-
track approach is humanitarian access for refugees and IDPs as 
well as some aspects of human rights protection. And what has 
happened is obviously a setback in so many ways. And as I said, 
it is deeply disturbing.
    There are things that Sudan needs to do, just straight-up, 
that the government must take on. And I think it is fair to say 
that we have constantly impressed upon them the need for 
creating constructive engagement, as opposed to what they are 
doing, with transparency. Because if they do not address that, 
it is very difficult to foresee a better relationship and a 
brighter path for the country.
    Ms. Bass. Well, then, let me just ask, because the funding 
cuts, as I understand them--and maybe I am misunderstanding--
impact our support to Sudan's opposition and civil society. So, 
I know if we are going to go in a direction to enter into phase 
2, I wasn't even referring to that. I was really referring to 
our support for democratic reforms and cutting those resources.
    Mr. Green. Well, as a general matter, across the continent, 
very obviously, tough choices are being made. We will do 
everything we can to make those dollars go as far as we can 
effectively and efficiently. As to the particular implications 
for Sudan, quite frankly, I will have to get back to you and 
make sure that we brief your staff. I am just not familiar 
enough with the details.
    Ms. Bass. OK. And the next was about Power Africa. Power 
Africa 2.0, which launched last year, is an updated strategy to 
improve energy access in Africa. And I wanted to know how this 
version differs from the administration's work in the past.
    Mr. Green. Power Africa 2.0 I think is applying the lessons 
that we have learned in terms of the need for a better enabling 
environment. So, the greatest thing about Power Africa has been 
how opportunistic it is----
    Ms. Bass. Right.
    Mr. Green [continuing]. In the sense of identifying and 
closing deals rapidly. In 2.0, as much as anything, we are 
working more broadly to provide or to push for the kinds of 
reforms to the enabling environment that open the door for more 
investment, which will allow us to have a greater impact across 
the continent. So, it is taking the opportunism that we have 
seen and applying it more broadly by applying the lessons that 
we have learned as to what a country needs to have available if 
American private investment is going to be able to take 
advantage of the opportunity.
    Ms. Bass. And then, maybe in the last few seconds, I know 
you were addressing the Ebola crisis that is happening in the 
DRC, and perhaps you can expand on that. What are we doing to 
get resources there?
    Mr. Green. In terms of what we are trying to do, again, 
working closely with CDC in trying to reinforce the Ministry of 
Health, I have been in constant contact with Dr. Tedros of the 
World Health Organization, urging a more aggressive vaccination 
approach, which I think is called for.
    In terms of the financial resources, it actually is not a 
fiscal issue. There is sufficient money for fighting Ebola in 
DRC. However, with the vaccines that we have available, to 
produce more takes eight to 10 months. And so, we are urging a 
more aggressive approach not only in potentially geographic 
vaccination, but also rebuilding supplies. We have plenty of 
supplies currently available, but with this new flare-up that 
we have seen, we think more aggressive vaccination is called 
for, and therefore, that we need to see more advanced purchases 
to rebuild those supplies.
    Chairman Engel. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Administrator Green, thank you for being here today. 
It is always inspiring.
    And I remember last year we were discussing how wonderful 
it would be for the American people to know what the United 
States Agency for International Development does around the 
world to help so many people recover. And I have seen firsthand 
in the Philippines typhoon recovery, but to see the refugee 
camps across the Middle East and Africa.
    One of the most meaningful experiences I ever had in 
Afghanistan, I was in a very rural area, and there was a sign 
for a school with the clasped hands, indicating a U.S. flag and 
an Afghan flag, in a very, very remote area. So, over and over 
again, the services that you help provide, and then, your 
promotion of democracy. The democracy programs have been so 
successful.
    I had the opportunity to be an election observer in 
Bulgaria back in 1990. And now, we see a very positive and 
democratically developed country, but it did not start that 
way. And so, IRI and NDI, working together, have made such a 
difference.
    Ambassador Green, you are addressing obstacles in providing 
assistance. Syria provides a difficult operating environment 
between the Assad regime and terrorist groups operating 
throughout the country. How does USAID negotiate the challenges 
for providing humanitarian response and stabilization 
assistance in this environment? And can you provide an update 
on the humanitarian response?
    Mr. Green. Thank you, Congressman.
    One quick point on a somewhat related subject. In my recent 
travels, when I was in Jordan, I visited a Catholic center that 
was helping Syrian refugees with job and skills training for 
their future. And one of the things they were doing was 
learning the skills of the tradition of making mosaics. They 
presented to me a large USAID logo made out of mosaics, the 
little stones, which is on its way to our headquarters. It will 
be posted in the lobby. I got to tell you, that was as moving 
as anything that I have seen because it is a reminder of the 
role that we play.
    With respect to Syria, our stabilization work continues 
through funding with our coalition partners. So, we are able to 
do in northeastern Syria additional stabilization work, but it 
is all dependent upon the security situation on the ground, 
which we are assessing each and every day to make sure that we 
are able to work in a safe setting.
    On the humanitarian front, we continue to provide 
humanitarian assistance. It is a vital part of what we do. The 
challenges in Syria in terms of the suffering are enormous, 
immense. We are currently funding 19 different organizations to 
provide food relief and shelter materials and health care and 
water. But the needs are vast and they will be for quite some 
time. So, we are doing the best we can with that situation on 
the ground.
    And then, finally, the other challenge that we face is 
being able to take sufficient precautions against diversion, 
which has always been a challenge in Syria. From third-party 
monitoring that we do, to working closely with the Office of 
the Inspector General, it is a very tough working environment, 
but one that we obviously all believe we need to engage in.
    Mr. Wilson. And another country that is in turmoil is Yemen 
and access to Yemen. What is being done to provide assistance 
for persons in Yemen?
    Mr. Green. Now things keep changing. I note that there was 
a recent contribution--I think it was from Saudi Arabia--toward 
cholera, in particular, in Yemen just in the last few days. But 
we have been the largest bilateral donor in Yemen.
    Look, humanitarian assistance is a treatment, not a cure. 
And we are very, very clear about that. So, humanitarian 
assistance, I am proud of what we stand for as Americans and 
what we do. It is not an answer. We need a political answer. We 
need a political solution to Yemen. And until that happens, we 
are going to continue to see enormous levels of suffering.
    Mr. Wilson. And a final one is the civil war in Libya. What 
is being done to address issues in Libya?
    Mr. Green. I will have to have staff followup with you. 
Quite frankly, it is changing so rapidly; I want to be careful. 
It is a rapidly changing situation. I got a briefing yesterday, 
but I fear it may be out-of-date. It is obviously a great----
    Mr. Wilson. Your service is greatly appreciated. Thank you 
very much.
    Mr. Green. Thank you.
    Chairman Engel. Thank you, Mr. Wilson.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman.
    And it is good to see you again, Ambassador Green.
    You and I have chatted in the past about the approach that 
you have taken in terms of capacity-building. Again, I would 
like to applaud that as opposed to just straight donations, 
looking at the assets in regions that we are going into and 
trying to build on those assets.
    In fact, I had the chance to share the stage with one of 
your deputies celebrating frontline health workers. I have had 
the chance to see your staff, whether it is in the slums of 
India, in the refugee camps with Syrian refugees, doing 
recovery effort in Sierra Leone. I want to applaud the men and 
women that represent our Nation in aid and development every 
day, and just make sure they understand that we appreciate the 
work that they do.
    We chatted, and I will not ask this in the form of a 
question, but I am happy that the administration is taking an 
interest in women's empowerment. But I think I would be 
negligent if I did not--as I have raised in private, we cannot 
do women's empowerment unless we are looking at access to 
reproductive health, unless we are empowering women to look at 
appropriate pregnancy spacing. And I am very concerned about 
what the administration is doing in terms of expanding the 
global gag rule. I will not ask you to respond to that, but I 
think it is very important for us from an oversight capacity to 
take a look at that and the impact that it may have on some of 
our objectives.
    I want to thank the chairman for reinstituting the 
Oversight and Investigations Subcommittee, which I get the 
privilege of chairing. One area that we have been hearing quite 
a bit about is this Congress has authorized and appropriated a 
lot of aid and development funding. And we are hearing from our 
partners that are out in the field that some of that funding is 
being very slow to get to where they were intended. Now I do 
not want to presuppose what the cause is. It could be 
understaffing. It could be the regulatory checks and balances 
that Congress has in place to make sure the funds are getting 
to the appropriate location. But what I would like to ask, as 
the Oversight Subcommittee starts to look into this issue, what 
can we do to get the funds quickly to where they can do the 
most help? Can I get the commitment from you and your staff to 
work with us on this?
    Mr. Green. Absolutely. Absolutely.
    Mr. Bera. Thank you. I appreciate that.
    A second real success in the last Congress--and I see my 
colleague, Congressman Yoho, here; Congressman Yoho, 
Congressman Smith, Senator Coons and Corker--was the BUILD Act, 
which really attempted to modernize how we did overseas 
financing and development, and was pretty widely applauded and 
shared in a bipartisan way.
    One thing, as we start to look at the implementation of the 
BUILD Act, that we have some concerns about is, you know, it 
really was meant to expand our lending capacity and give us the 
ability to compete with China in a smart and strategic way. We 
do have some concerns of how the administration is looking at 
the BUILD Act, perhaps taking an existing portfolio of loans 
that USAID has and folding it into the new Development 
Financing Corporation, which would really undermine the intent 
and potentially limit our ability to counteract China.
    In the minute I have, I would love to have your commitment 
to work with us on that and to make sure it is being 
implemented in the most effective way. But, two, what things do 
you think from an oversight perspective we ought to be thinking 
about?
    Mr. Green. Great questions, really important questions.
    So, we are at that point in the process where we are 
working closely with OPIC, which would be obviously----
    Mr. Bera. Right.
    Mr. Green [continuing]. The precursor to the DFC, toward 
that October 1st date when the new DFC will stand up. So, we 
are having regular communications about that.
    To me, the most important things are twofold. No. 1, I 
think ensuring that we continue to focus on development impact. 
This is meant to be a development entity that produces real, 
measurable development outcomes. It is not meant to be a 
private bank, and it is not. It is meant to do that which could 
not otherwise be done. And we are very supportive of that. So, 
I think making sure that we measure development impact.
    And second, I think it is really important that we 
incentivize the kinds of reforms that create the enabling 
environment for private investment. China does not want to see 
enabling environment reforms. They do not want transparency. 
They do not want these things. It is up to us to incentivize 
and bolster the capacity of countries to take it on. Because if 
countries, often with our help, do reform their enabling 
environment, private enterprise will take off, and then, I will 
not say our work is done, but it is a huge step toward that day 
when a country is fully self-reliant. So, I think those two 
areas are going to be crucial in coming months to make sure 
that we do this the right way.
    Mr. Bera. Well, Ambassador, I look forward to working with 
you on that.
    Mr. Green. Thank you.
    Chairman Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Ambassador Green, thank you for being here.
    As you know, I came up here to have a different attack on 
foreign aid, and we have transformed, over the course of the 
last 6 years. But, yet, my underlying belief is we have to do a 
better job of directing this money. And I understand that in 
the past, and suspect in the future, we will continue to 
support democracies because we know it leads to better 
governance, rule of law, increased economies, better human 
rights, and the story goes on and on.
    But, as the world changes, with a rising China offering an 
alternative to Western forms of democracy, with their form of 
socialism and Chinese characteristics attached to it, it is 
just a real obvious divide. You can have Western democracies or 
you can have Chinese forms of socialism, which basically is 
communism. And they are offering their 5G network. We know 
firsthand that they have offered the 5G network to Maduro, so 
that they can control their citizens, as China is doing. Russia 
wants that technology. Iran wants it.
    And so, we know this is happening throughout the world. 
Yet, we are in the foreign assistance realm in this committee 
in a large way, in this country. And so, we want to make sure 
that money is used effectively. As you said in your opening 
statement, partners prefer to partner up with countries like us 
because we are a trusted partner with the rule of law.
    And so, when you look at democracies--and I just want to 
touch on Vietnam. Vietnam is a communist country, but yet they 
are our 10th largest trading partner, or 16th largest trading 
partner, 10th largest importer of ag products. How do you look 
at countries and determine which way do you go as far as where 
do we develop, how do we develop, and knowing they are 
communists, lead in this direction? Because I truly believe, if 
we lead in this direction, over time they will change.
    Mr. Green. Great question. So, the approach that I have 
always taken--and this goes back to the day when I was an 
ambassador in Tanzania, which was for the longest time a non-
aligned nation, which meant it was looking more eastward than 
it was westward--I used to go in and say, look, I am not saying 
we have got all the answers as Americans. I am saying maybe we 
have made in our history all the mistakes, and you do not have 
to make the mistakes that we have made to get ahead. You can 
learn from our experience. And I find that is a great way to 
start the conversation and helping them to understand what we 
have learned the hard way is needed for sustainable economic 
growth.
    A couple of things I think with respect to China that are 
really, really important. No. 1, we are the preferred partner, 
but oftentimes countries are presented with deals that look too 
good to be true.
    Mr. Yoho. Well, and that is where I wanted to get in this.
    Mr. Green. And they usually are.
    Mr. Yoho. I wanted you to bring this up.
    Mr. Green. So, I think it is very important that we also 
look at providing them with the objective tools to evaluate 
that which they are presented, because they are complicated 
deals. And quite frankly, oftentimes, the fine print is just 
that, and it is devastating with what it does.
    So, in every case in which China presents a deal to a 
country, to me, the most important single public question is, 
will you make it transparent?
    Mr. Yoho. Right.
    Mr. Green. Will you release it publicly?
    Mr. Yoho. And they run from that.
    Mr. Green. And again, I think it is really the base, the 
premise of your question. Again, this is not great power 
competition. We are not going in the same direction. China does 
not seek the same end zone that we do.
    Mr. Yoho. Right. They are playing a whole different game.
    Mr. Green. It is a very different thing that they are 
seeking to achieve, and we have to be very clear about that 
over and over again.
    Mr. Yoho. And that is what we rely on you, and I know you 
guys do the--you know, we have been around enough State 
Departments that we realize you guys are the best that there 
is, and that it is a whole different game. We are offering 
economic development for the betterment of that country; 
whereas, China is offering them these loans for the betterment 
of China.
    We were in the DRC with Chairman Royce a couple of years 
ago, and I asked a rhetorical question to President Kabila's 
cabinet: ``What do you do for social programs?'' And the guy 
says, ``What do you mean?'' I said, health, education, all 
those things. And this is what shocked me, the rapidness in his 
answer. He pointed at us, he goes, ``We have you.'' Those are 
not sustainable programs.
    Right now, our debt is $61,000 per capita in this country. 
We are under budget restraints. And so, we rely on people like 
you to implement this, the foreign aid, especially with the 
BUILD Act. We were honored to have that pass. And we met with 
David Bohigian today and Ray Mosbacher, or Mr. Mosbacher, today 
on the implementation. And we are excited for that, and I hope 
it is a tool. It is like a piano. It is in front of you; I hope 
you guys learn to play it well for the implementation, for the 
betterment of this country, because good foreign policy is good 
economic policy. It is good trade policy. But, ultimately, it 
is strong national security.
    Thank you.
    Chairman Engel. Thank you.
    Mr. Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Administrator, as the chairman said earlier in this 
hearing, I had the pleasure of visiting Colombia, the southern 
border, Cucuta, with Venezuela, El Salvador, and Mexico, as 
well as the southern border of our Nation. In Venezuela, as 
Maduro doubles down and begins to crack down on Guaido and some 
of the opposition to his tyranny, we also see the potential of 
the situation spiraling out of control. The bridges leading to 
Venezuela and the southern border have containers filled with 
sand and bolted down to the actual bridge. To move them, you 
are probably going to have to blow up the bridges.
    So, do you see--my first question is--as this takes another 
level of need, do you see the potential of us airlifting aid to 
Venezuelans, particularly those in the interior that would not 
have access to the border anyway, assisting perhaps 
humanitarian organizations with the task of airlifting aid to 
needy Venezuelans in the interior and all over the country?
    Mr. Green. Great, great question. So, what has been a 
watershed moment, a game-changer for us in terms of trying to 
help ease suffering in Venezuela, was the recognition of Juan 
Guaido as Interim President by the U.S. and 50 other countries, 
because it has given us someone with whom we can work in terms 
of the prepositioning of assistance and a more trusted network. 
As you know, Nicolas Maduro has used humanitarian assistance as 
a weapon, and he has used food to reward his friends and punish 
his enemies. We simply will not be part of that, very 
obviously.
    Mr. Espaillat. Yes, but excuse me on this.
    Mr. Green. Uh-hum.
    Mr. Espaillat. But that is not happening. He is doubling 
down on Guaido. So, are we going to allow the Venezuelan people 
to starve to death? Can we airlift aid to towns where perhaps 
people can have direct access to food and medicine, and just 
drop down that aid? I think we have got to save lives. This is 
spiraling out of control, and it could be a major, major 
humanitarian crisis, if it is not already. Can we do that?
    Mr. Green. So, first off, it is a major humanitarian crisis 
already. Second, as you may have seen, in the last week an 
arrangement was reached with the International Federation of 
the Red Cross/Red Crescent----
    Mr. Espaillat. Can we work with them?
    Mr. Green. Potentially. One of the things that we need to 
make sure of is that the agreement will be abided with, so that 
we do not allow Nicolas Maduro to once again use assistance as 
a weapon. But that is a hopeful step.
    Also, the prepositioning of supplies in places like 
Curacao--and as you know, a shipment just reached Curacao--will 
allow us, knock on wood, when that day comes, to mobilize 
assistance under the interim, Guaido's leadership, into some of 
those areas.
    We are working with other allies. We are working with the 
Brazilians. We are working with the Colombians. So, the good 
news is that there is a broad network of aligned countries 
looking for ways to be able to speed up relief into parts of 
the country.
    Mr. Espaillat. Thank you.
    My second question is, we also visited El Salvador, and we 
were very encouraged to see this new 38-year-old President who 
ran against corruption and violence, has got the aspirations 
and the support of the young people in that country, a country 
that has seen a drop in homicides of 50 percent. We saw 
programs supported by your agency to recruit young people away 
from gangs. And really, what they need right now is a shot in 
the arm with economic development to see if we can get that 
economy going again and creating jobs.
    Yet, the President threatened to cut El Salvador's aid, 
which is probably the model that we ought to follow in Honduras 
and in Guatemala. The folks showing up at the border are 
primarily from Honduras and Guatemala, and not even Mexico. 
Less than 12 percent of the folks being sent back are of 
Mexican descent.
    So, what do you feel about this threat to shut down aid to 
El Salvador, a country that is seeing some progress in fighting 
the violence and the corruption, and everything else there? And 
by the way, the Chinese are there. If we do not do it, they 
will step up and fill the vacuum of leadership.
    Mr. Green. Congressman, I am long overdue to get down there 
myself. I was last there, actually, right before I became 
Administrator.
    We have seen some programs that are doing good things. 
Obviously, none of us are entirely satisfied with the broad 
results in terms of displaced communities and migrant flows. We 
all recognize that, as you know----
    Mr. Espaillat. Is it a mistake for the President to 
threaten to shut down aid?
    Mr. Green. Well, the Secretary is reviewing all the 
existing grants and contracts that use Fiscal Year 1917 dollars 
to make sure that they are aligned and achieving outcomes, and 
I look forward to that review.
    Mr. Espaillat. But is it a mistake? Is it a mistake?
    Mr. Green. Look, the President is the President. He is 
expressing frustration. We share the frustration. It is as----
    Mr. Espaillat. So, you are frustrated with that decision, 
as I am, right?
    Mr. Green. I am sorry?
    Mr. Espaillat. You are frustrated with that decision, as we 
are?
    Mr. Green. I am frustrated with the situation of the rising 
numbers on our southern border. As former Secretary Jeh Johnson 
said, ``It is a crisis by anyone's determination.'' And so, 
clearly, we all have to do more, and we are looking at new 
approaches. We look forward to the review and look forward to 
the day when the White House is satisfied that our host country 
partners are making the necessary commitments that we can take 
on some of these issues again.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Chairman Engel. Thank you.
    Mrs. Wagner.
    Mrs. Wagner. Thank you, Mr. Chairman, for organizing this 
hearing.
    Thank you, Administrator Green, for your time and your 
service.
    The high rates of child marriage remain a serious concern 
in refugee camps. In fact, I introduced a bill yesterday that 
would prompt the United States to take the lead on this issue 
at the United Nations. How is USAID working to provide 
alternatives to child marriage among refugees and other 
vulnerable populations?
    Mr. Green. A great question. I have not seen the 
legislation. I have heard of the legislation.
    Mrs. Wagner. We will send it to you.
    Mr. Green. I very much appreciate your interest and 
leadership on the issue.
    So, there are a number of things that we have been doing 
and need to be doing. One of the biggest things we need to do 
is to empower young women, girls and young women, better 
educational access, providing the kinds of economic 
opportunities in communities that give families more 
independence and more choices. I think those are among the 
things that we need to be doing. But it is----
    Mrs. Wagner. We also want to stop children from being 
married off in these refugee camps.
    Mr. Green. And the other piece to it is protection of 
vulnerable girls.
    Mrs. Wagner. Right.
    Mr. Green. So, in some cases it is removal; in other cases, 
it is counseling and health response. There are a number of 
things that we need to do. There is no one thing. It is the 
full range of services from the more punitive side in terms of 
removal and prosecution----
    Mrs. Wagner. Right.
    Mr. Green [continuing]. To looking at these young, 
vulnerable girls and women and providing counseling and relief 
and caring. So, it is the full range.
    Mrs. Wagner. Tens of thousands of Rohingya have been 
trafficked by criminals promising employment and citizenship. A 
ship carrying 47 trafficked Rohingya arrived in Malaysia just 
yesterday. And Malaysian authorities fear that trafficking 
operations are on the rise. What measures does USAID employ to 
prevent Rohingya refugees from falling prey to human 
traffickers?
    Mr. Green. Our work in trafficking is global. Obviously, 
Rohingya are particularly vulnerable for the obvious reasons. 
So, it is, again, the full range. It is from protection, 
counseling. Prosecution is a big piece of it that we need to be 
doing, investigation and prosecution. But it is providing some 
economic independence and opportunity as much as anything.
    So, you have the Rohingya who are in Bangladesh and 
Rohingya who are in Burma. In the case of Burma, we continue 
to, and need to continue, pressing with the government to allow 
some semblance of dignity and opportunity for these targeted--
--
    Mrs. Wagner. Well, they have got to have stability first. I 
mean, we have to go after the perpetrators. I mean, 47 just 
arrived there in Malaysia yesterday----
    Mr. Green. Yes, absolutely.
    Mrs. Wagner [continuing]. And they say they are seeing it 
daily. The demand side has got to be shut down, and these 
people that are selling these poor refugees into sex slavery 
need to be stopped and prosecuted.
    Mr. Green. Congresswoman, the even greater tragedy, these 
are just the ones that are caught. It is an even greater 
problem.
    Mrs. Wagner. I am sure of that.
    I want to thank you for highlighting the work USAID is 
doing to advance the Indo-Pacific Strategy, reassuring our 
allies and partners. However, Southeast Asia countries on the 
frontlines of escalating competition between the United States 
and China worry that a strategy focused on the Indo-Pacific 
will diminish their role in regional affairs. How will USAID 
promote Southeast Asian countries' centrality in achieving a 
free and open Indo-Pacific?
    Mr. Green. All the ASEAN countries are part of the Indo-
Pacific Strategy----
    Mrs. Wagner. Yes.
    Mr. Green [continuing]. That has been laid out. So, the 
piece that we have at USAID is focused on energy independence, 
in particular, which is one of the greatest constraints to 
economic growth. So, that is perhaps the biggest focus of what 
we are doing. But it is engaging, it is being there, it is 
bolstering our presence there. It is being opportunistic in 
terms of American investment, which they seek, and it is 
providing the means to allow their communities a vibrant 
economic future. So, it is all of those things, but very much 
ASEAN is at the center of the Indo-Pacific Strategy.
    Mrs. Wagner. As the co-chair of the ASEAN Caucus, I could 
not agree more in terms of security and safety, in security 
issues, in terms of trade issues, energy issues. We have great 
opportunity there to be a counterbalance to China. So, I thank 
you for whatever USAID can do to bolster the region.
    And my time has expired and I yield back.
    Ms. Houlahan [presiding]. Thank you.
    I now recognize Representative Levin from the great State 
of Michigan.
    Mr. Levin. Thank you, Madam Chairwoman.
    Mr. Green, thank you so much for coming. I am very excited 
to see you here.
    I first studied USAID as a 19-year-old college student when 
I went to Haiti to look at the impact of USAID programs during 
the Duvalier dictatorship. And I have got a lot of questions 
for you. So, I will try to zoom along.
    Do you believe that humanitarian assistance should be 
guided by internationally recognized humanitarian principles?
    Mr. Green. I am sorry. Could you repeat? I did not hear.
    Mr. Levin. Yes. That humanitarian assistance should be 
guided by internationally recognized humanitarian principles, 
humanity, neutrality, impartiality, and the like?
    Mr. Green. Sure, but we deploy our humanitarian assistance 
according to not only--I mean, as you know, we are the largest 
donor by far in humanitarian assistance.
    Mr. Levin. Although not proportional to our budget. Other 
countries do much more----
    Mr. Green. No, but, by far, we are----
    Mr. Levin. I know we are by far, but we are a lot bigger 
country than many European countries. So, we are not the most 
generous by our ability to pay.
    But, anyway, go ahead. I know we give a lot.
    Mr. Green. I mean, we are, again, No. 1, and 2, 3, and 4 
added together do not equal us. So, we are, by far, the largest 
donor. And I do not mean it as an excuse; I mean it as a point 
of pride. It is obviously something that we all think is 
important.
    So, in terms of international standards, sure, I think we 
help to shape those international standards as much as 
anything, but we deploy our humanitarian assistance in most 
places, like what is taking place now from Cyclone Idai, based 
upon what our teams see on the ground as the most immediate 
needs and what we can do to provide relief and stabilization in 
an economic future.
    So, I am not sure I dodged the question, but----
    Mr. Levin. Yes, well, I guess I have been having trouble 
understanding some of the actions the administration has taken. 
It feels like our humanitarian assistance is unduly influenced 
by politics.
    For example, we have effectively ended assistance to the 
West Bank in Gaza. I do not think there can be any doubt that 
humanitarian aid is needed there. For example, in Gaza, just 10 
percent of households have direct access to safe drinking 
water. Yet, the President's budget request merely says that any 
economic assistance to Palestinians will be available through a 
new Diplomatic Progress Fund, ``should advances be made,'' 
quote/unquote, ``in support of U.S. objectives in the peace 
process.'' Isn't that saying that humanitarian assistance 
should be subject to political outcomes? Isn't that effectively 
what we are pretty much doing in--I say this as a huge backer 
of Israel my whole life, but I do not see how this helps us.
    Mr. Green. So, the Diplomatic Access Fund, as I understand 
it, is an effort to create, to sort of allocate or set aside 
resources, so we can be opportunistic when situations open up.
    Mr. Levin. Well, I mean, do you have evidence that 
indicates that the loss of aid for Palestinians will aid the 
prospects for peace?
    Mr. Green. In the case of----
    Mr. Levin. We are cutting aid, sir, conditional on them 
doing evidently what we want. We do not have a peace proposal.
    Mr. Green. So, there are a couple of things, though. Just 
it is important to clarify because there are two different 
things that have happened here. So, with respect to West Bank 
Gaza, there was the review that was directed in 2018 that led 
to the reallocation of resources, redirection of resources away 
from West Bank Gaza. And then, second, near the end of last 
year was the passage of ATCA, which, then, led to the 
Palestinian Authority formally notifying the U.S. Government 
that it would not accept any assistance that was covered by or 
specified in the legislation. And so, I just wanted to be 
clear, those are the two----
    Mr. Levin. Yes, but my time is super-limited. I am trying 
to get to a broader point. So, let me just mention the cutting 
of aid to the Northern Triangle. In 2017, Vice President Pence, 
at the Northern Triangle Conference for Prosperity and 
Security, said, and I quote, ``To further stem the flow of 
illegal immigration and illegal drugs into the U.S., President 
Trump knows, as do all of you, that we must confront these 
problems at their source. We must meet them and we must solve 
them in Central and South America.'' How does cutting off 
assistance to these countries help achieve the administration's 
stated goal of addressing the key factors driving families to 
flee to the U.S.?
    Mr. Green. Just to be clear, I think this is where perhaps 
I think we had some confusion before. That is not humanitarian 
assistance. That is development assistance. Just because we 
have an important----
    Mr. Levin. No, right, I am talking about USAID's overall 
mission and the politicization of it.
    Mr. Green. Fair enough.
    Mr. Levin. But I totally agree with what you are saying.
    Mr. Green. With respect to the Northern Triangle, as we 
began with, with respect to the Fiscal Year 1917 moneys, the 
Secretary will be leading a review over the next couple of 
weeks. Again, I think we are frustrated that we are not where 
we would like to be in terms of illegal immigration along the 
southern border. We have been working on some new tools, and we 
are hopeful that we get to a point in the future where we are 
able to have effective partners on the other side to work on 
some of these measures.
    Ms. Houlahan. The gentleman's time has expired. I now 
recognize Representative Wright from Texas.
    Mr. Wright. Thank you, Madam Chairman.
    And, Administrator Green, thank you for being here, and 
thank you for your many years of service to our country.
    I want to focus just a moment on energy and the threat 
Russia poses. It continues to weaponize its energy resources, 
as you know, against Europe and Eurasian countries. And that 
makes it increasingly risky for EU and NATO to be reliant on 
Russian oil and gas.
    What is USAID currently doing to assist European countries 
in diversifying their energy resources, and how can we use 
public-private partnerships to connect American energy 
companies with European countries?
    Mr. Green. A great question. Earlier when we were talking 
about the countering Kremlin influence framework, some of it is 
messaging and democratization, but a big piece of it, to go 
country by country, is taking a look at that increasing 
dependency on Russian sources of energy, which Russia certainly 
fosters and pushes. So, it is helping these countries undertake 
reforms in the enabling environment such that American private 
investment has an opportunity.
    Second, it is working to, again, help them evaluate what 
dependence on Russian sources of energy does for other portions 
of the economy. It is diversifying sources in terms of bringing 
to bear private sector technologies. It is all the above, but 
it is, as you are suggesting, it should be a very high priority 
because country by country that is what the Russians are often 
exploiting, is that energy dependence.
    Mr. Wright. Is it your observation that some of our allies 
in NATO are stumbling blocks to that effort?
    Mr. Green. To be honest, I am not sure I am qualified to 
answer that.
    Mr. Wright. In terms of our ability to help them diversify 
their energy resources, do we have allies that are stumbling 
blocks to that effort?
    Mr. Green. We can followup with you, but we have a lot of, 
I think, key allies in Europe and Eurasia for whom we are the 
preferred partner. And I think there are great opportunities 
there. Country by country, we will followup with you.
    Mr. Wright. I want to shift to Africa for just a moment. In 
December, the administration's new Prosper Africa Initiative, 
as part of its Africa strategy, the administration requested 
$50 million in funding to launch Prosper Africa, which in 
National Security Advisor Bolton's words, ``will support U.S. 
investment across the continent, grow Africa's middle class, 
and improve the overall business climate in the region.'' 
Presumably, this will allow the U.S. to better compete with 
great power investment on the continent. Can you give me a 
better idea of what types of programs will be supported by the 
initiative, and will there be any emphasis on increasing 
investment in broadband infrastructure? We know what China is 
doing in Africa with its broadband, and that is a potential 
danger for everybody.
    Mr. Green. Thank you, Congressman.
    Prosper Africa we will be formally unveiling very soon in 
the near future. It is an initiative that is aimed at doubling 
two-way trade between Africa and the U.S. by 2025, and it is 
going country by country to look at commercial opportunities 
and ties. I think broadband has to be a big piece of it 
because, when it comes to what authoritarians are doing on 
broadband, it is not only what they are seeking to do in terms 
of economic opportunity; very often, it is about data 
harvesting. It is about closed-loop systems in which they are 
seeking to advance their data harvesting for strategic 
purposes. So, we have two reasons to be taking it on.
    Mr. Wright. Thank you.
    And I yield back.
    Ms. Houlahan. Thank you.
    I now recognize the gentlewoman from Virginia, 
Representative Abigail Spanberger.
    Ms. Spanberger. Thank you so much for your time today.
    I am a former CIA case officer, and in my counterterrorism 
experience, when there is a void, someone will fill it. And so, 
the work of your agency is so tremendously important to making 
sure that we are the ones filling that void. From Hezbollah in 
southern Lebanon to the transnational criminal organizations 
and drug cartels of Central America, we see what happens when 
there are voids and communities in need. So, I thank you for 
your work in that arena.
    And my question today is specific to the Indo-Pacific 
budget proposal put out by the administration. The State 
Department and USAID have said that support for the Indo-
Pacific region is a top priority for the Trump administration. 
And in a tweet on March 12th, the @usforeignassistance account 
stated that the budget request for the Indo-Pacific efforts, 
quote, ``nearly doubles foreign assistance resources we will 
invest in the Indo-Pacific to promote a free, open, and secure 
region.'' End quote. Is this accurate, that this budget request 
doubles our State and USAID investments over current levels?
    Mr. Green. I will have to respond to you more formally, but 
for the Indo-Pacific, presumably, yes. It is $1.2 billion, and 
the Indo-Pacific Strategy was just launched in 2018. So, in 
terms of specific accounts, I will be happy to respond to you 
formally.
    Ms. Spanberger. And I would appreciate that formal 
response.
    I do not think that we should be legislating or 
communicating solely on Twitter. But, in the case where this is 
out there in the public sphere, I have to call attention to the 
fact that this tweet is, in fact, rather deceptive and 
inaccurate, because, in fact, the budget request would, if it 
were honored as it is requested by the administration, would 
effectively be $161 million cut over Fiscal Year numbers, based 
on budgeting. We only have the Fiscal Year numbers available 
for our Indo-Pacific efforts. That is an 11 percent decrease, 
and that is a substantial--substantial--decrease.
    The details there would be the administration did not 
request at high levels in Fiscal Year 8. Congress saw fit to 
fund programs that are incredibly vital, again, to fill in 
these holes. So, I am very concerned by the fact that this is 
the message that is being put out; that, in fact, it looks as 
though we are increasing our efforts, when, indeed, the 
proposal would be cutting them.
    And my concern relates specifically to the Philippines. The 
Philippines is one of our largest foreign assistance recipients 
in Asia through the Partnership for Growth, and we have seen a 
troubling erosion of democratic institutions in this country, 
from erosions of the media, the judiciary, I mean the well-
reported extrajudicial killings that exist across the country. 
And having spent time studying and recognizing the challenges, 
the counterterrorism challenges, in Mindanao, my question for 
you is, what do you think we can be doing to address the root 
causes of the conflict in Mindanao, and how do you feel that 
those efforts are going?
    Mr. Green. Thanks for the question.
    So, on the Indo-Pacific, we will get back to you formally.
    Ms. Spanberger. Thank you.
    Mr. Green. With respect to the Philippines, there are clear 
challenges to be taken on. I was just trying to get to the page 
in our self-reliance roadmap because it is one of the areas 
that we want to prioritize in terms of civil society and 
responsive governance, not only because it is an expression of 
American values, but we all believe it is key to a sustainable 
economic future.
    In terms of specific evaluation on the Philippines, I will 
get back to you formally. I have not been there, quite frankly, 
in a couple of years. But the Philippines is a very important--
first off, it is not only a very important partner for us, but, 
second, the conflict that we have seen in the southern 
Philippines is deeply disturbing. And in terms of our battle 
against violent extremism, you know, the good guys have to win. 
I will put it that way.
    Ms. Spanberger. Thank you. Well, thank you for your 
continued service and thank you for your time today.
    I yield back.
    Ms. Houlahan. Thank you.
    I now recognize Representative Pence from Indiana.
    Mr. Pence. Chairman Engel, Ranking Member McCaul, thank you 
for convening this hearing.
    Administrator Green, thank you for being here. I know you 
have got a lot of challenges around the world, and I appreciate 
your time.
    In your prepared testimony, you said, and I quote, 
``Nowhere is America's leadership in humanitarian assistance 
more important or more timely than our continued response to 
the manmade, regime-driven crisis in Venezuela.'' So, it was 
with great interest that I read of the continuing power outages 
in Venezuela. After several weeks of power outages, tens of 
thousands of Venezuelans protested the Maduro regime in the 
streets. We are talking about an energy-rich country that 
cannot keep the lights on.
    I note that, on April 3d, USAID announced it had 
prepositioned emergency health kits to help Venezuelans in 
need. This is important and necessary assistance, but I imagine 
in a country that is used to having the lights on, those lights 
being off presents challenges, especially in medical attention. 
If hospitals and clinics go without power, that probably 
necessitates more health kits.
    Venezuela certainly has the capacity to supply power to its 
people, but my concern is what their infrastructure looks like 
after so many years of mismanagement by the socialist Maduro 
regime. My question: assuming we experience a successful 
transition to legitimate and Interim President Guaido, how 
quickly and will USAID be able to provide--and I read from your 
literature--``energy sector reconstruction in countries 
recovering from conflict and national disasters''? In 
Venezuela, as you note, how is USAID's Office of Energy and 
Infrastructure Programs planning for this challenge?
    Mr. Green. Congressman, great question and an important 
challenge and opportunity, one of the most important in the 
world for us right now.
    First, on the challenge side, you put your finger on it, 
and I think a lot of people do not really realize this: how 
great the suffering is in terms of the medical challenges as a 
result of a grid that, shall we say, is at best extraordinarily 
fragile. When I met with a number of Venezuelan refugees in 
Cucuta in Columbia, I often heard that they were driven by 
that, the lack of insulin, the lack of medical supplies because 
of the lack of refrigeration, quite frankly, and storage. So, 
it is a profound humanitarian challenge that we see.
    Second, in terms of when we get to that day, when we all 
look and say, OK, we have the open door, we have the 
opportunity, it is going to take years and it is not going to 
be simply a U.S. Government effort; it is going to be a broad-
based effort by the private sector, the public sector, and a 
wide range of our allies.
    Now let me give you the most hopeful piece of this. I have 
had a couple of trips in which I have gone through Florida, 
Miami, and met with a number of the Venezuelan diaspora. There 
are few places for which I have seen a more dedicated and 
prepared and nimble diaspora than the Venezuelan diaspora. 
Doctors, professionals, a wide range who I have met with who 
are already going back to Venezuela to do charity care and such 
on a fairly regular basis. But, second, they are helping us all 
think through the scenario planning to mobilize those networks. 
It is going to take a lot. It is going to be a long-term 
challenge. It is going to take public sector, private sector, 
but I am very optimistic about how this will go and, also, what 
it will mean to the entire hemisphere. The departure of the 
authoritarian regime which has brought about immense suffering, 
its benefit to the world, especially the Western Hemisphere, is 
immense, worth our attention.
    Mr. Pence. Thank you, Administrator Green.
    I yield my time.
    Ms. Houlahan. Thank you.
    I now recognize myself for 5 minutes.
    Thank you so much for your testimony, sir.
    I have two separate kinds of questions, and I am going to 
try to use my 5 minutes appropriately for that. I had the 
opportunity--I also serve on Armed Services--to meet with the 
head of DARPA, and I asked him what keeps him up at night. And 
his answer was the same thing that keeps me up at night, which 
is biology. A couple of us here have asked questions about the 
Ebola outbreak. But, as recently as this week, there were two 
articles in The New York Times. The first one was titled, ``In 
Poor Kenyan Communities, Cheap Antibiotics Fuel Deadly Drug-
Resistant Infections''. In Kenya, 90 percent of people use 
drugs, antibiotics, in the last year. And that compares in the 
U.S. to about 17 percent. We have lost about 700,000 people to 
drug-resistant antibiotics in the last year alone.
    There was a second article that also talked about this same 
concern, but in the case of anti-fungal disease, resistant 
treatments. This one was called, ``A Mysterious Infection, 
Spanning the Global in a Climate of Secrecy''. It was also 
about the Candida auris virus. Again, half the people who get 
this particular fungal infection end up dying within 90 days.
    And so, my question to you is similar to the questions 
about Ebola. What are we doing to address these issues? 
Because, largely, the issue is not necessarily resistant 
treatments to antibiotics, but also the disease and--I am 
sorry--the dirt and the fact that we are not taking care of 
communities, and that is where they are getting infections 
from.
    Mr. Green. I can see why it keeps you up at night in terms 
of the way that you have laid it out, absolutely. So, a few 
things. One aspect of this that I thought you were going to 
focus on, which is also a legitimate and real concern, is 
fraudulent medicine. And when I served as Ambassador in 
Tanzania, one of the things we saw far too often were drugs 
that were nothing but water. And we saw a lot of fraudulent 
manufacturing and distribution, particularly coming from the 
East, but not exclusively, and it is a real problem.
    Second, as we work country by country, we look to build the 
capacity to detect and respond to disease from infectious 
disease to non-infectious disease, because not only is it the 
right thing to do, but it can lead to the kinds of despair that 
creates stabilization threats and concerns as well. So, it is 
also a focus for us in that area as well.
    And we have in some of our overseas platforms, we have 
particular capacities to help us detect and address outbreaks 
and recognized health challenges before, hopefully, they spread 
and become an even greater challenge. So, all of those things.
    Ms. Houlahan. Thank you. And I would love to get a little 
bit more detail on the things that you think we are doing in 
places like Kenya to make sure that we are taking care of the 
cause of these kinds of infections, as opposed to the treatment 
of them.
    Mr. Green. And education, I think--I used to live in 
Kenya--so, I think, in particular, education; making sure that 
fairly basic, sound health is put into the curriculum in 
countries with which we partner. That also helps to head a lot 
of this off.
    Ms. Houlahan. And thank you.
    And with the last minute and a half of my time, that is the 
second thing that I wanted to ask you about. I appreciated 
comments from both sides of the aisle about the importance of 
education, particularly for women and girls, which is another 
passion of mine. And I wanted to ask you to comment a little 
bit about the global gag rule and to ask you, how you are 
evaluating the impact of that rule on your service, the 
delivery of services you provide? And what are you putting into 
place to understand and measure the impact of that rule?
    Mr. Green. Thank you, Congresswoman.
    So, in I think it will be May, as we are working on it, we 
will be working with State producing a report that we have 
discussed with a number of Members of Congress, or which has 
been requested by a number of Members of Congress, that takes a 
look at the data regarding PLGHA, its application in terms of 
those organizations which have participated and those which 
have turned down funding. So, that is a report that we will be 
happy to bring to you and brief you on.
    Ms. Houlahan. I appreciate that.
    What criteria will you use to determine any exemptions, if 
any at all, to the gag rule?
    Mr. Green. Exemptions in what sense?
    Ms. Houlahan. Is there any circumstance under which you 
think that the administration's gag rule will be waived for 
some particular reason? And I am sorry, I only have 5 more 
seconds.
    Mr. Green. Sure. Sure. I turn to the announcement the 
Secretary made just a couple of days ago, which was pretty 
clear and stands on its own. So, I am not aware of exemptions 
that are bring looked at.
    Ms. Houlahan. Thank you so much. I appreciate your time.
    And I now will recognize Representative Reschenthaler from 
the great State of Pennsylvania.
    Mr. Reschenthaler. Thank you, Chairwoman.
    And thank you, Administrator Green. Thanks for all you do 
for the country as well.
    As you know, last year the President signed the Taylor 
Force Act into law. This measure prohibits direct assistance or 
funding projects to the Palestinian Authority until they stop 
paying convicted terrorists and their family members. USAID has 
operated many projects in the West Bank. Some of the projects 
have directly benefited the Palestinian Authority and others 
may not have. Administrator Green, although the aid is 
currently suspended, has the agency developed objective 
guidelines to make determinations for future aid disbursements 
on what assistance directly benefits the Palestinian Authority?
    Mr. Green. We absolutely comply with the Taylor Force Act 
and have drawn up implementation guidelines. I would be happy 
to brief you on it further.
    Mr. Reschenthaler. And thank you.
    I just want to shift gears briefly here. In a recent fact 
sheet on partnering and procurement reform, you indicated a 
desire to diversify USAID's partner base. I just wanted to see 
what steps you are taking to incentive USAID to make new awards 
to small, U.S.-based nonprofits, such as those with less than 
$50 million in gross proceeds a year.
    Mr. Green. Great question, a topic for which I am 
passionate, but rarely gets any attention outside of a small 
number of people.
    So, one of the things that I discovered when I arrived at 
USAID--and it has been a trend for years--quite frankly, was 
the shrinking number of partners. It was a smaller and smaller 
number of partners. None of them are bad partners, but we are 
not getting the competition, obviously, that we all believe is 
important.
    So, what we have been doing is utilizing some of the 
procurement mechanisms that we already had on the books and, 
quite frankly, did not utilize often enough, which, 
essentially, if you will, lower the cost of participation, so 
smaller businesses find it easier to bring forward their ideas. 
No guarantee that they are going to get the contract or 
agreement, but at least make it easier for us to engage with 
them.
    Second, and one of the areas that I think is really 
important, we are utilizing some of the tools that I think have 
been best pioneered by the Global Development Lab that allow 
for more collaboration, where we set out an area of interest 
and objectives and funding, and actually bring in businesses, 
including smaller businesses, for-profit and nonprofit, to 
explore ways of drawing up approaches together. I think it 
creates better tailored responses to challenges that we see, 
but will broaden our partner base. And we are already starting 
to see that partner base expand.
    Perhaps the best example is in the area of TB, 
tuberculosis. So, in the TB Accelerator Initiative that we 
unveiled at the end of last year, we did a call for 
participation by local, smaller businesses. And we had 
something like 300 expressions of interest, which surprised a 
lot of our team and, quite frankly, made me very happy because 
it means that we are getting that greater level of competition. 
So, it is an area in which I think everyone agrees competition 
is good, new ideas are good, and new partners are good.
    Mr. Reschenthaler. Thank you, Administrator Green.
    And I yield back the balance of my time.
    Ms. Houlahan. Thank you.
    I now recognize Mr. Ted Lieu from California.
    Mr. Lieu. Thank you, Madam Chair.
    Thank you, Administrator Green, for your public service.
    I listened to your entire opening statement earlier today. 
As you know, Yemen has been of intense interest to U.S. 
Congress on a bipartisan, bicameral basis. I am curious why in 
your opening statement you did not mention Yemen. So, my first 
question to you is, did anyone in the administration suggest or 
direct you not to mention Yemen in your opening statement?
    Mr. Green. Absolutely not. It was for time.
    Mr. Lieu. OK. Would you agree that Yemen is the world's 
worst humanitarian catastrophe right now?
    Mr. Green. It is certainly right up there. If it is not 
first, it is first, second, or third. We face----
    Mr. Lieu. What would be a worse humanitarian catastrophe 
than Yemen right now?
    Mr. Green. I mean, you could point to the Ebola crisis. You 
could point to what is happening in Mozambique, in Zimbabwe, in 
Malawi, which is the worst humanitarian crisis in two decades. 
So, I do not mean to be argumentative, but we have a lot right 
now.
    Mr. Lieu. Right, but reports are from various places maybe 
up to 14 million people are at risk of famine. That is pretty 
bad, right?
    Mr. Green. Oh, absolutely, yes.
    Mr. Lieu. So, how much is USAID trying to help out in 
Yemen?
    Mr. Green. A ton. We are the largest bilateral--again, I 
cannot speak with the recent contribution that was made by, I 
think, Saudi Arabia--we have been the largest bilateral 
humanitarian donor in Yemen.
    Mr. Lieu. How much money is that?
    Mr. Green. Seven hundred and twenty-one million dollars 
since October 2017. And just a matter of weeks ago, we 
announced an additional $24 million in humanitarian assistance. 
I meet monthly with the NGO's that are working in Yemen to talk 
with them about the challenges that they are seeing on the 
ground. So, we are very heavily engaged in Yemen, and I agree 
that it is a top priority.
    Mr. Lieu. Thank you. I just want to make sure that Yemen 
is, in fact, your top priority----
    Mr. Green. Very much so.
    Mr. Lieu [continuing]. Because I could not tell that from 
your opening statement.
    Mr. Green. Again, not intentional.
    Mr. Lieu. OK. Thank you.
    So, if the UN-brokered deal on Hodeidah collapses and the 
port city if cutoff by fighting, what contingency plans, if 
any, are in place within USAID to deal with the humanitarian 
fallout?
    Mr. Green. Again, the Deputy Secretary of State and I meet 
monthly with all the NGO's working, representatives of the 
NGO's working in Yemen, always drawing up contingency plans. To 
be very clear, the work that we do, the humanitarian assistance 
is not an answer. A political solution is the answer. Ours is 
treatment of suffering. And so, we are constantly looking at 
ways for the most effective, efficient delivery that we can do. 
We partner----
    Mr. Lieu. Thank you. Would you be OK if we, in written 
questions, if you provided us----
    Mr. Green. Oh, absolutely.
    Mr. Lieu. Yes, I thank you.
    Now are there any countries or parties in Yemen right now 
trying to block humanitarian assistance?
    Mr. Green. I will have to get back to you in writing. 
Conflict itself is what blocking humanitarian assistance.
    Mr. Lieu. So, if could get back to us of what----
    Mr. Green. It is a security situation is what is making it 
difficult for us and our partners to be able to provide the 
relief we all want to provide.
    Mr. Lieu. Thank you.
    Now there are other parts of the world where you do have 
either organizations or countries specifically trying to block 
humanitarian aid. And so, my question is, what unilateral and 
multilateral tools does the U.S. Government have to facilitate 
the delivery of humanitarian assistance and to hold accountable 
those who obstruct it?
    Mr. Green. So, first off, the obvious answer is diplomatic 
and economic pressure. A classic example is Venezuela and 
Nicolas Maduro's efforts to block the delivery of humanitarian 
assistance. We apply diplomatic pressure, political, economic 
sanctions. In other parts of the world, it is constantly 
looking for innovative delivery mechanisms to do our best to 
try to get humanitarian assistance in.
    Mr. Lieu. You would support using targeted economic 
sanctions for those who try to obstruct humanitarian 
assistance?
    Mr. Green. Again, that is a question for the State 
Department and Treasury. Our piece is the delivery of 
humanitarian and development assistance. We are the operational 
part of that. So, I would refer you to the Secretary of State 
or Secretary Mnuchin.
    Mr. Lieu. Thank you. I appreciate your time.
    And I yield back.
    Ms. Houlahan. I now recognize Congressman Guest from 
Mississippi.
    Mr. Guest. Thank you.
    Mr. Green, you say on page 7 of your written statement, you 
refer to Russia and China. You say in that statement, ``Many 
parts of the world have seen exponential growth of predatory 
financing dressed up as development assistance. China and 
Russia have been by far the greatest, though not the sole, 
sources of such financing. This form of financing often leads 
to unsustainable debt, eroding national sovereignty, and even 
the forfeiture of strategic resources and assets.'' Could you 
just expand on that just a little bit, please, sir?
    Mr. Green. Sure. I will put it this way: a few months ago, 
I had a chance to meet with some American business leaders, men 
and women who were doing some investments in countries where 
China is a player in terms of its financing. And they said that 
in the business community they refer to Chinese finance as 
``loan to own'' because the terms are set up basically never to 
be repaid and, as a result, forfeiture of assets. We have 
certainly seen it in places like Djibouti and in Sri Lanka, the 
unsustainable debt, quite frankly, that has emerged from this. 
So, it is predatory financing.
    Obviously, it is not the assistance that we do. We do true 
development assistance. We want to help countries help 
themselves and rise. And I would guess you would agree, I do 
not believe that that is what China, in particular, but others, 
seeks to do.
    Mr. Guest. And, Mr. Green, you also stated and you talk a 
great deal about the value of partnerships with the private 
sector, engaging the private sector in foreign assistance. 
Recently, H.R. 2067, which is the Trade Act, which would use 
the roadmaps created by your Department, seeks to identify 
countries that are currently receiving foreign aid and turning 
these countries into trade partners with the United States. Do 
you believe that, if we were able to use that public-private 
partnership, and we were able to turn countries that are 
currently receiving aid into trade partners, that this would 
help combat some of the influence that we are seeing coming out 
of Russia and China?
    Mr. Green. In our model of assistance, what we call the 
journey to self-reliance, we want to help countries progress to 
the point where they can be trading partners. So, where they 
have good protection of rule of law, regulatory capacity, they 
have those attributes that are necessary for effective 
investment in trade, that is always the goal.
    Countries want private investment. That is their ultimate 
goal. Many countries simply are not there yet in terms of their 
capacity. We seek to try to bolster that capacity, so that that 
is where they can get to, those sustainable investments that 
help them to lead their own future.
    Mr. Guest. And is one of the goals of the aid that you 
provide and the plans that you put in place to make these 
countries to where they do reach the level where they can be 
trading partners with the United States?
    Mr. Green. Our goal is to help countries go from being 
recipients to partners, to fellow donors. And also, to be 
clear, we provide almost no money directly to governments. We 
work through NGO's and we work through civil society partners, 
often that which can most effectively create these conditions. 
But, as a general matter, it is getting to that point where 
they can be fellow donors, the South Korea miracle, what we 
have seen--India is now one of the largest donors to 
Afghanistan work. That is obviously the ideal.
    Mr. Guest. Thank you.
    I yield back.
    Ms. Houlahan. Thank you.
    With sincere apologies, I now recognize Mr. Ted Deutch from 
the great State of Florida.
    Mr. Deutch. Thank you, Madam Chair. There is no need to 
apologize.
    Mr. Green. Well, there is an introduction.
    [Laughter.]
    Mr. Deutch. But it is a great State and I appreciate that.
    Madam Chair and Mr. Ranking Member, thanks for holding this 
hearing.
    And thank you, Administrator Green, for being here today.
    I would like to begin by commending USAID and your 
incredible work force of civil and Foreign Service Officers. 
The work that you do has tremendous value to our country and to 
partners around the world. And all of us on this committee, and 
all of us in our country, frankly, should and must value the 
contribution that you make to global stability and to the 
United States national security. We are most grateful.
    That, Administrator Green, is why I am so concerned that, 
for the third straight year, the Trump administration has 
proposed drastic cuts to the international affairs budget. This 
year's request includes a 24 percent cut to the overall foreign 
affairs budget, 28 percent reduction to global health, and a 34 
percent decrease to humanitarian assistance. Again, it is more 
than a quarter of the whole cut in the programs for global 
health and over a third in the programs that are focused on 
humanitarian assistance.
    Foreign assistance is not charity. We invest in people and 
countries around the world because it is in our own national 
interest. Investing in diplomacy and development prevents the 
outbreak of conflict. It saves U.S. taxpayer dollars. Most 
importantly, it saves American lives by preventing the 
deployment of U.S. service members to dangerous parts of the 
world.
    And while we have got to maintain the world's most powerful 
military, many contemporary crises from deadly pandemics to 
climate change, to a record number of displaced persons 
worldwide, lack military solutions. You cannot fix them by 
sending in troops.
    I look forward to working with my colleagues on both sides 
of the aisle to reverse these misguided cuts and to pass a 
budget that actually advances U.S. interests and values and 
enhances our national security. And, yes, that includes 
increased funding for programs like yours.
    I serve as chair of our Subcommittee on the Middle East and 
North Africa. And as the Syrian conflict continues and the 
situation in Yemen deteriorates, where in Syria over half a 
million dead, more than 6 million internally displaced persons, 
5 million refugees, and Yemen, where 24 million people are in 
need of aid. Economic development, education, and good 
governance programs are critical to stabilize just all the 
region. That is what we ought to be investing in.
    But the Fiscal Year budget request for the Middle East is 
12 percent less than the Fiscal Year actual level. And while 
ISIS's caliphate might be defeated, its fighters remain active, 
could launch strikes and further destabilize Iraq and Syria. 
And the Fiscal Year economic assistance request for Iraq is 
less than a quarter of what we spent in Iraq in 2017. The 
request also zeroes out economic assistance for Syria, which 
follows the administration's decision last August to freeze 
stabilization assistance for Syria. We have learned the hard 
way that, if we do not support people immediately after 
conflict, we run the risk of malign forces intervening to make 
the situation even worse.
    Administrator Green, with such a reduced budget, how do you 
plan to support the Syrian and Iraqi people? How do we prevent 
the return of ISIS?
    Mr. Green. Thank you, Congressman.
    Obviously, first off, it is a budget that will not seize 
every opportunity or address every challenge; we recognize 
that. No budget in recent memory has or could, and it is a 
budget with tough choices in it. We will ask others to do more, 
and in many places we will ask host country partners to 
mobilize their own resources. And we will also engage with the 
private sector more and more. But my commitment, also, in the 
work that we do is to be as effective as we know how to be and 
as efficient as we know how to be, and that is our commitment, 
to make these dollars go as far as they can. But it clearly is, 
at the end of the day, if we have less resources, inevitably, 
we cannot do as much.
    Mr. Deutch. Which is why we are committed to ensuring that 
you do not. As my time winds down, I appreciate the desire to 
ask others to do more, and certainly the private sector should 
play a role. But, as with everything else that we do in this 
committee, the concern that I have, that so many of us have, is 
that on this issue of the greatest way to display our 
commitment to American values, when we say we are going to 
leave it up to others, when we say we are going to leave it up 
to the private sector, we miss out on the opportunity to lead. 
And when we are not leading, we are sending a message to the 
rest of the world that these types of interventions, which are 
meant to help the development of these societies and provide 
assistance and keep people alive, that they are just not as 
important as they once were. But they are to me and they are to 
this committee, and we are going to do everything we can to 
make sure that you have the necessary resources to show the 
leadership that America needs to show.
    And I yield back.
    Ms. Houlahan. Thank you.
    I now recognize Representative Burchett from the State of 
Tennessee.
    Mr. Burchett. Thank you, Chairlady, and it is a pleasure 
having you at the helm.
    I am going to forego the usual praise of my own party and 
distaste for the other party. I am just going to ask you a 
question, if that is all right, brother.
    And it is something I dealt with when I was a State 
legislator and made statements on and passed legislation, or 
attempted to. It deals with religious freedoms, with religious 
minorities that are being targeted for violence and 
intimidation all over the world. Can you explain how these 
funds will be used and how they can help keep religious 
minorities protected?
    Mr. Green. Thank you for the question.
    With respect to northern Iraq, which is the highest profile 
work we have been doing in this regard, we have people in the 
field who meet with representatives of the religious and ethnic 
communities, from Chaldean Catholics to Yazidis, and look for 
ways to restore essential services, so they can find their 
future there. It is very challenging work. We want to create an 
environment in which these communities can return home, and 
that we can roll back some of what ISIS stole from them, which 
is the ability to live securely and express their faith, 
whether they be Yazidi or Christian. Obviously, it is not 
faith-or religion-specific, nor should it be.
    Mr. Burchett. Chairlady--or, Chairman, excuse me, sir. 
Quite a metamorphosis up there.
    [Laughter.]
    That is a big word.
    I yield the remainder of my time. Thank you, sir.
    And thank you, brother. I appreciate you being here.
    Mr. Allred [presiding]. The gentleman yields. We now 
recognize the gentleman from New Jersey, Mr. Malinowski.
    Mr. Malinowski. Thank you.
    And, Administrator Green, thanks for your testimony. Thank 
you for your commitment to democracy and to development.
    I do want to go back to the Central America discussion for 
a bit. In response to a question from Chairman Engel, you said 
something along the lines of that you are confident that when 
partner countries in Central America are doing all they can, we 
can resume or continue our assistance programs. What do you 
mean by ``doing all they can''? Are you referring to the 
President's demand that they stop people from leaving their 
countries?
    Mr. Green. Thank you for the question.
    So, very clearly, the President is frustrated. I think 
everyone is frustrated. We hope to see more, we want to see 
more in terms of stemming the flow of illegal migration, 
immigration, on the southern border. That is what has led to 
where we are in terms of what the Secretary announced and the 
review that is being undertaken.
    What we are doing during this process is not only 
participating in the review in terms of talking about our 
programs, but looking inward and trying to sharpen our tools, 
so that they are focused on geographically the areas from which 
migrants are coming, those that are coming illegally, but also 
sharpening our tools in terms of the metrics that we apply to 
our programs with implementing partners. So, that is what we 
are undertaking.
    Mr. Malinowski. But it is our policy that these countries 
should stop people from leaving? Is that a fair statement of 
our policy right now?
    Mr. Green. Well, in terms----
    Mr. Malinowski. It is what the President has said.
    Mr. Green. In terms of the overall policy, I will leave 
that to the State Department, as the lead institution here. 
But, very clearly, trying to address the drivers of migration 
is what our programs are about.
    Mr. Malinowski. There is a huge distinction between 
addressing the drivers, which is what USAID was doing by 
funding development, security assistance programs, and urging 
countries to stop people from leaving. And can you think of any 
precedent, historical precedent, in which the United States has 
urged another country to stop people from leaving? I mean, we 
urged the Soviet Union to allow Soviet Jews to leave. We have 
condemned North Korea for stopping people from leaving its 
country. We would be outraged if the Maduro regime were to stop 
people from leaving. How would this even work? Are we advising 
the Honduran police to arrest or shoot people if they try to 
leave their country?
    Mr. Green. Again, these are not things in which USAID is 
participating. So, quite frankly, I would refer you to the 
State Department.
    Again, on the piece that is in our lane, as I mentioned, we 
are looking at tools that we can sharpen and present.
    Mr. Malinowski. Right. Well, OK. It does seem that your 
ability to use those tools rests on these countries meeting 
that demand, and I find it completely and utterly unprecedented 
in our history that we would be asking a country to do that.
    On Syria, a number of members have asked about this, about 
the ending of our stabilization program there. And I think you 
have referred to other countries meeting a greater share of the 
burden. And, of course, one of those countries that has been 
providing, and we have been urging to provide, a lot of money 
for Syria programs is Saudi Arabia. And I have to say that 
raises more concerns in my mind than any gratification.
    Can I ask you, can Saudi money in Syria be used to support 
women's rights organizations or schools that allow boys and 
girls?
    Mr. Green. In Syria or?
    Mr. Malinowski. In Syria. They wrote us a check, and we are 
urging them to take on more of the burden.
    Mr. Green. First off, we have not discontinued our 
stabilization work. It is simply being funded--I think that is 
your reference--by, in this case, Saudi Arabia and other 
partners. In terms of what those dollars can be used for, I 
will have to get back to you.
    Mr. Malinowski. Is there an MOU that you could share with 
us?
    Mr. Green. Presumably, yes, but we will get back to you 
formally and brief you and get you something.
    Mr. Malinowski. That is good. Because, I mean, in my mind, 
stabilization involves a lot more than just bulldozers fixing 
infrastructure----
    Mr. Green. Yes.
    Mr. Malinowski [continuing]. Although that is important. It 
is also training local police that can respect human rights, 
supporting NGO's, supporting local councils that can provide 
effective governance. Would you agree that those are important 
aspects of stabilization?
    Mr. Green. Sure. I mean, it is part of stabilization. 
Obviously, in the case of Syria, there is so much to be done on 
so many fronts, but your points are taken.
    Mr. Malinowski. Right. These are things we were doing. So, 
I would hope that they would continue.
    Mr. Green. Yes, and we will formally get something back to 
you.
    Mr. Malinowski. Thank you so much.
    Mr. Green. Yes.
    Mr. Allred. Thank you.
    I now recognize myself for 5 minutes.
    Mr. Administrator, thank you for being here today and for 
your patience. I know it has been a long hearing. And I want to 
thank you for your career of work and the body of work that you 
have put together. I am a big believer in the work that you 
have done and in the work that you are doing now. I think that 
our soft power and our aid, and our use of that aid, is one of 
the best ways we can engage with the world.
    As many of my colleagues have said, I do not envy you being 
here today, having to defend a budget that I do not think 
reflects your values or reflects the career that you have put 
forward. To me, this budget request is a series of shortsighted 
decisions that would cost us more in mitigation efforts down 
the road, if they are enacted, than the savings, I guess you 
could call them, that we might get in the short term. Whether 
we are talking about opening the door to increase, as you have 
said, often predatory Chinese influence or withdrawing critical 
funding for democracy assistance at a time when democratic 
institutions across the world are increasingly in danger, these 
decisions, if enacted, would reduce our soft power, make the 
world less safe and fair, and be counter to our national 
security interests, in my opinion.
    And so, I just want to have a conversation with you. 
Several members have discussed the President's threats to 
cutoff funding to Central America. And several weeks ago, you 
testified before the House Appropriations Committee about the 
effectiveness of USAID programs in Central America. And I just 
want to ask you, how would cutting this funding negatively 
impact the progress that USAID has made?
    Mr. Green. In the Northern Triangle, some of the programs--
well, the programs that we have been focusing on the drivers of 
migration, some of these have shown real results. Clearly, more 
needs to be done. I think we all recognize that. As I 
mentioned, we are taking a look, everything we can, to find 
ways to improve these tools, both in how they are targeted and 
how they are applied, and look forward to participating in the 
review of the State Department and the interagency discussing 
these and seeing how we might be able to be helpful.
    Mr. Allred. What programs would you say have been most 
successful in Central America that USAID has administered?
    Mr. Green. Oh, there is a wide range. I am, again, a big 
believer in our food security tools, but it something that, 
quite frankly, did not exist when I was an ambassador overseas. 
I look back on it now and I think of all the things that we 
missed that we could not take on. So, I think food security 
investments, done the right way, are a way of accelerating 
economic opportunity. So, I am a big believer in those.
    I also think the citizen security work, where we create 
work to try to create safe places for families, for kids to be 
able to go to school, for families to be able to gather, but, 
again, clearly, there is so much to be done, and we all 
recognize that.
    Mr. Allred. Yes. Well, thank you.
    I would just note that, in this budget request for Fiscal 
Year 0, there has been a 50 percent cut to the food security 
program--50 percent. And for education funding, there has been 
a 60 percent cut requested. So, directly counter to the 
programs that are most effective in Central America, and I just 
do not think that is in our interests.
    So, you did speak movingly earlier about the need to 
educate and protect girls and women across the world, 
especially those who have been displaced. As you know, last 
year there were over 25 million refugees worldwide. This budget 
calls for a $3 billion cut to migration and refugee assistance. 
And I just want to ask you, how will USAID be able to ensure 
that programs to help deal with and protect women and girls who 
are displaced, how will you be able to protect them if these 
proposed cuts are enacted?
    Mr. Green. Well, we will have to make sure that we 
prioritize in our allocations these challenges as much as we 
possibly can. We seek to garner support from others as well. We 
need other countries to step up and help contribute. The need 
outpaces, obviously, the supply of resources, not simply under 
this budget request, but, quite frankly, under budget enacted. 
There are 70 million displaced people in the world. I worry 
about children growing up in displaced communities, and it is 
important work to be done. We either do it now or, quite 
frankly, I think we end up dealing with it later.
    Mr. Allred. I could not agree with you more, Mr. 
Administrator, and I want to, again, thank you for your hard 
work. And I know USAID's staff is one of the best agencies that 
we have, and I want to thank your staff as well.
    Mr. Green. I am a lucky guy. It is a great organization----
    Mr. Allred. Yes, sir.
    Mr. Green [continuing]. Great professionals.
    Mr. Allred. Yes, sir.
    And with that, I will recognize the gentleman from 
California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. Thank you.
    It would, indeed, be a change in American policy if we were 
to say that countries should keep people in. We never said that 
in East Berlin. We did not say that with regard to Cuba. The 
idea of punishing a country for not building a wall around its 
own borders with the barbed wire facing in is absurd. We should 
call upon Central American countries to provide the better 
governance that would cause most Central Americans to live in 
Central America.
    And toward that end, there is nothing more ironic and sad 
and counterproductive than for us to spend not only billions on 
a wall, as is proposed, but many tens of billions of dollars of 
dislocation in our society, ripping apart America, all because 
we will not spend hundreds of millions, and perhaps a few 
billion, making life in Central America more tolerable.
    We have seen a dramatic decline in illegal immigration from 
Mexico because things are better in Mexico than they were 20 
years ago. It should not be beyond our capacity to achieve a 
similar life for the people of northern Central America.
    As to your budget, we in Congress will ultimately determine 
that. It would be good to have the Trump administration on our 
side, but we will be doing everything possible to give you a 
budget that we will count upon you to spend according to law.
    I have so many questions. I will start with, since fiscal 
1998, our assistance program for the Republic of Artsakh, 
formerly known as the Republic of Nagorno-Karabakh, has 
supported life-giving maternal health, provided clean drinking 
water, cleared mines. And, of course, the HALO Trust, which is 
leading the mining efforts, reports that it has completed about 
88 percent of the mission, but needs American support. Is USAID 
committed to completing the clearance of landmines and 
unexploded ordnances within the traditional boundaries of the 
Republic of Artsakh?
    Mr. Green. Yes. In fact, I just received something. We 
actually expect to complete this work in, I think it is 
calendar year 2020. So, absolutely, and thanks for bringing it 
forward.
    Mr. Sherman. Thank you. I had a followup question, but I 
think your answer to that question was so good, I am going to 
move on.
    Let's talk about Pakistan for a second. USAID has played an 
important role in Pakistan, particularly with its education 
system. Are there ways that charitable organizations can 
partner with USAID to support that work?
    Mr. Green. As you know, we are undergoing--``we'' being the 
administration is undergoing--a review of our assistance in 
Pakistan that we hope will be finalized soon. And we will then 
report to you in terms of what will be going forward.
    Mr. Sherman. In spite of our aid to Pakistan, conditions in 
the Sindh province of south Pakistan continue to deteriorate in 
many areas. Schools and hospitals are getting worse in many 
areas, as is water availability. Of course, we see the Hindu 
minority subject to persecution to force conversions and force 
marriages. What is USAID doing to ensure that assistance to 
Pakistan is improving the lives of ordinary people in Sindh?
    Mr. Green. As with all of our programs, we have the program 
metrics that we use. One thing we are trying to do more of is 
to shift from outputs to outcomes. So, we have our roadmap with 
17 objective metrics that help us measure capacity and 
commitment in each country where we work or want to work, like 
Pakistan. So, more and more, we are trying to make sure that we 
are able to make a difference on the outcome side, hastening 
the capacity of our host country partners to take on these 
challenges themselves, although I think Pakistan is daunting.
    Mr. Sherman. I thank you for that, and I hope that when you 
focus on Pakistan, you will focus on the women and children, 
and especially the minority religions in Sindh.
    As to Sri Lanka, perhaps for the record, you could provide 
me with a progress report on U.S. assistance to Sri Lanka, 
particularly in the former war zones, and let me know what 
USAID is planning to do to help that country recover from its 
ethnic conflict. Can I count on you for that written report?
    Mr. Green. Yes, absolutely.
    Mr. Sherman. I believe my time has expired.
    Mr. Allred. Thank you.
    That concludes today's hearing. I again thank our witness 
and all of our members for their participation today.
    The committee stands adjourned.
    [Whereupon, at 12:15 p.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
